<html>
<title> - SUDAN AND SOUTH SUDAN: INDEPENDENCE AND INSECURITY</title>
<body><pre>[Senate Hearing 112-473]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-473

           SUDAN AND SOUTH SUDAN: INDEPENDENCE AND INSECURITY

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 14, 2012

                               __________

       Printed for the use of the Committee on Foreign Relations



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





      Available via the World Wide Web: http://www.gpo.gov/fdsys/







                  U.S. GOVERNMENT PRINTING OFFICE

75-020 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
               William C. Danvers, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        







                            C O N T E N T S

                              ----------                              
                                                                   Page

Clooney, George, Cofounder, Satellite Sentinel Project, 
  Washington, DC.................................................    31
Kerry, Hon. John F., U.S. Senator From Massachusetts.............     1
Lindborg, Hon. Nancy, Assistant Administrator for the Bureau of 
  Democracy, Conflict and Humanitarian Assistance, U.S. Agency 
  for International Development, Washington, DC..................    15
    Prepared statement...........................................    17
Lugar, Hon. Richard, U.S. Senator From Indiana...................     4
Lyman, Hon. Princeton, Special Envoy for Sudan, U.S. Department 
  of State, Washington, DC.......................................     5
    Prepared statement...........................................     8
Temin, Jonathan, Director, Sudan Program, U.S. Institute of 
  Peace, Washington, DC..........................................    33
    Prepared statement...........................................    35


              Additional Material Submitted for the Record

Response of Ambassador Princeton Lyman to Question Submitted by 
  Senator John F. Kerry..........................................    53
Response of Assistant Administrator Nancy Lindborg to Question 
  Submitted by Senator John F. Kerry.............................    53

                                 (iii)

  

 
                        SUDAN AND SOUTH SUDAN: 
                      INDEPENDENCE AND INSECURITY

                              ----------                              


                       WEDNESDAY, MARCH 14, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Menendez, Cardin, Casey, Shaheen, 
Coons, Durbin, Udall, Lugar, Corker, Isakson, and Barrasso.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. Thank you very much, everybody. I appreciate 
it. Thank you.
    Mr. Ambassador, we are delighted to welcome you here today. 
One of the privileges and responsibilities of our committee is 
to shine attention on important issues when they are not part 
of the daily drum beat of the news cycle.
    We all remember the famous moment in ``Charlie Wilson's 
War'' when, having achieved the objective of driving the 
Soviets out of Afghanistan, Charlie Wilson is stunned to see 
how quickly his colleagues have moved their attention 
elsewhere, despite, as Wilson said then, that the ball keeps on 
bouncing. Well, we know what came next and how tragically too 
many policymakers only returned their attention to Afghanistan 
after 9/11.
    Our committee, I believe, would fail the test of history if 
we allowed attention today to drift from the critical situation 
in Sudan and South Sudan.
    I had the privilege of being in Sudan a number of times 
over the course of the last few years, and particularly for the 
referendum. And I saw the expressions of hope for the future 
and watched the difficult birth of a new nation. I was 
privileged to be there with Ambassador Lyman, with others, with 
George Clooney, John Prendergast, people who invested a lot of 
time and effort and energy to get to that moment.
    I think now we would all do well to remember that you can 
have a vote to make a new beginning for a nation or any number 
of things, but you can lose the future when the tough choices 
that follow are denied, when they are deferred, or when 
collective attention is somehow diverted. That is why at a time 
when the world faces a lot of competing crises, all of which 
are competing for attention, we need to wrestle with and 
understand what steps the United States and our partners should 
take to help Sudan and South Sudan resolve the complex 
challenge before them.
    Make no mistake. It is the leaders in Khartoum and Juba who 
must choose between a future of conflict and poverty or a 
future of security and prosperity. But we must not abdicate the 
important role the United States can play in helping to nurture 
the process just as we helped the midwife the birth of a new 
nation.
    There are actually some signs that are cautiously 
encouraging. On January 9, President Bashir made the right 
choice in allowing the South's referendum. On July 9, he made 
the right choice in recognizing its outcome, and even in 
traveling there to welcome it. Yesterday he announced that he 
would travel to Juba for the first time since independence in 
order to meet with President Salva Kiir.
    But for every step forward, there has also been a step 
backward toward the patterns of violence and repression of 
Sudan's past. In the last year, Bashir has waged war on his own 
people in Southern Kordofan and Blue Nile. He has arrested 
student protestors, and he has rejected viable solutions, the 
outstanding issues in favor of aerial bombardment and bellicose 
rhetoric. The past has begun to become prologue.
    For its part, South Sudan has established itself as a new 
nation. President Kiir has named a diverse Cabinet, and the 
leaders in Juba have put forward serious proposals for a 
lasting settlement. But the country has also experienced 
wrenching ethnic violence. There are allegations that it has 
supported proxy fighting in the north, and, in an act that may 
be justified, but may also be self-defeating, it has cut off 
the flow of oil.
    For all these struggles, we cannot devalue the progress 
that we have seen. Peacefully creating a new state was an 
accomplishment of historic magnitude. Furthermore, in Abyei, 
Ethiopian peacekeepers have helped to bring a critical measure 
of stability, although it has to be said that it came after an 
enormous amount of movement of people and the killing of 
people, and really the cleaning out of the whole population in 
that area. The New York Times recently titled an article, 
``Hope for Darfur,'' and, I would ask you, when was the last 
time you saw ``hope'' and ``Darfur'' in the same sentence?
    Cautious optimism may be appropriate given recent 
developments. Some Darfuris who were displaced are returning 
home, and the Sudanese Government and the Liberation and 
Justice Movement signed a peace agreement last year. So, I look 
forward to hearing today whether these steps, if actually 
implemented and supported, could, in fact, become the 
foundation for a more lasting resolution in Darfur.
    At a time when there are those who want to slash the 
international affairs budget, I want to point to Sudan and 
South Sudan as examples of the power of diplomatic engagement. 
The CPA was signed because of diplomatic engagement. The birth 
of a new nation took place because of careful, sustained 
diplomatic engagement. We can and must continue to put our 
shoulder to this wheel, even as we acknowledge that the fate of 
these two countries lies with their people and their leaders.
    Sudan must escape its fatal cycle of conflict, not as some 
next chapter in the Arab Awakening, but because it is the only 
way to forge a viable political and economic future for its 
people. The bombing and humanitarian blockade in Southern 
Kordofan and Blue Nile has to stop.
    South Sudan in turn has the opportunity to avoid the 
corruption that has too often plagued oil rich countries, and 
it has the opportunity to create an inclusive government that 
embraces ethnic diversity.
    Last December, I had the privilege of standing with 
President Kiir at the engagement conference with South Sudan 
here in Washington. At that conference, he spoke eloquently 
about the long road to freedom. I know that journey came at 
tremendous sacrifice in blood, sweat, and tears, but the long 
road to freedom was never intended to be at trek to perpetual 
conflict and poverty and violence. It was always a journey to 
hope and prosperity. That journey continues. Two fragile states 
emerged on July 9, and we are all here today because it is in 
the vested interest of the international community that those 
two countries become partners in political and economic 
stability, not volatile adversaries in an already troubled 
region.
    We are also cognizant that this region is the region that 
extends south to the territory of the Lord's Resistance Army, 
and extends to Eritrea, into Somalia, to al-Shabaab, and to 
many other dangerous players, all of which could create 
conflagration that could even eclipse the longest war, which 
was the war in Sudan that saw the loss of over 2 million 
people.
    So, we are privileged this morning to be joined once again 
by the President's Special Envoy to Sudan, Ambassador Princeton 
Lyman. We know that you are just back from Ethiopia, Mr. 
Ambassador, and, believe me, for all the members of this 
committee and for all of us, we want to thank you for your 
tireless service and for your efforts to try to move this 
process forward.
    We also welcome Assistant Administrator Nancy Lindborg from 
USAID. And we are particularly grateful for their efforts and 
their partnership in what we are trying to achieve.
    And I also want to welcome our first U.S. Ambassador to 
South Sudan, Susan Page, who is in the audience today.
    On our second panel, George Clooney and John Prendergast 
will join us, and I want to thank them, both of them. I was 
there with them last year. I saw firsthand the focus and 
attention that their efforts and their project has brought to 
this issue. They represent the Satellite Sentinel Project, 
which has given us a window into events in Southern Kordofan 
and Blue Nile and elsewhere. And they are literally today just 
back; they arrived yesterday from Sudan and will share with us 
their observations. I am pleased that they have been able to 
get here, and I know they are going to be talking with 
Secretary Clinton and President Obama tomorrow and others this 
week.
    And joining them on that panel is Jon Temin, who is a Sudan 
scholar at the U.S. Institute of Peace.
    So, I think today we will have a good opportunity to really 
get some insights, and we welcome it.
    Finally, let me just on a note of sadness. I think as many 
of you know, Congressman Don Payne passed away last week. He 
was a constant champion for all of Africa, a tireless advocate 
for the people of Sudan and South Sudan. His funeral service is 
taking place today, and this morning our committee remembers 
him for his dedication to the cause of peace.
    Senator Lugar.

            OPENING STATEMENT OF HON. RICHARD LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you, Mr. Chairman. I join you in 
welcoming our distinguished witnesses. We look forward once 
again to their testimony, and we have appreciated their good 
counsel. And I join you once again in a tribute to Don Payne, 
who has worked with us in this committee and in the House, and 
has been such a champion for Africa.
    The Foreign Relations Committee has become very well 
informed about Sudan, and now South Sudan, over the past 
decade. This is, unfortunately, due to the inordinate amount of 
human suffering that has occurred there, including genocide, 
other crimes against humanity, deadly tribal conflicts and now 
border clashes.
    The extreme violence and depravation that characterize much 
of the conflict in the central African region, including Sudan, 
has recently been brought home to millions in this country 
through the viral YouTube video that depicts the cruelty 
inflicted by Joseph Kony and the Lord's Resistance Army.
    The impact of the bloody fighting between Sudan and South 
Sudan has been brought home in another way. When the 
Comprehensive Peace Agreement (CPA), signed in 2005, finally 
achieved the separation of South Sudan from the north last 
July, it was hoped that the petroleum wealth they shared--oil 
from the south is exported through pipelines in the north--
would be deemed too precious for either side to forgo. Instead, 
however, oil exports have stopped, putting upward pressure on 
oil prices globally. Even though the United States imported no 
oil from Sudan, oil is traded on a world market, so in today's 
tight oil market, any major loss of supply affects all prices, 
from the crude that Americans import to the gasoline that they 
put in their cars.
    This is why I have stressed the importance of U.S. and 
international efforts to improve transparency and governance in 
oil-rich countries. Stability in oil-producing regions leads to 
stability in gas prices here, and I appreciated very much the 
leadership of Senator Cardin in that effort.
    Events in faraway lands can directly affect the U.S. 
economic and security situation. Besides influencing the cost 
of the fuel that heats our homes and powers our vehicles, 
conflicts in places like Sudan, Somalia or the Arabian Gulf can 
place strains on our humanitarian resources and require us to 
maintain civilian and military capacity to respond to crises 
that affect our national security interests.
    The administration should redouble its diplomatic efforts 
with the international community, including the African Union 
and the Arab League, to help bring about a stable and 
productive South Sudan and a more responsible and responsive 
Republic of Sudan. Developments in the past 8 months have only 
made those challenges greater. The most egregious violence and 
violations of international law again emanates from Khartoum, 
Sudan, as the al-Bashir government engages in its familiar 
pattern of crimes against humanity, including starvation as a 
method of war.
    I expect our witnesses today will describe the humanitarian 
and human rights atrocities that have occurred since the two 
countries separated in July. I am particularly interested in 
learning about the displacement of more than 120,000 people 
from the Nuba Mountains of Southern Kordofan and from Blue Nile 
State, along the new border between the two Sudans. I am also 
concerned about the genesis of dozens of violent conflicts that 
have erupted within the borders of the new South Sudan.
    This is a country where people fought for years to be free 
of subjugation by Khartoum. We had hoped that independence 
would lead them to set aside their tribal differences and work 
together to build a new nation.
    The United States has played an important but carefully 
defined role, which it must continue, in seeking resolution of 
the conflicts that plague the region, from Senator Danforth's 
efforts at concluding the CPA to Secretary Powell's efforts to 
stop the genocide in Darfur, to Secretary Clinton's recent 
direct engagement at the U.N. on a peacekeeper agreement.
    Famine looms in the Kordofan and Blue Nile areas of Sudan, 
thanks primarily to the actions of the Government in Khartoum. 
This follows closely another manmade hunger crisis in Somalia 
that also threatened hundreds of thousands of families.
    The United States should work to galvanize an international 
response, in conjunction with the Arab League and the African 
Union, to preclude further catastrophe. In particular this 
means leveraging our diplomacy to press China, Sudan's major 
oil customer, to live up to its responsibilities as an 
important world power and use its influence to help bring about 
a reconciliation of the parties.
    The Chairman. Thank you very much, Senator Lugar.
    Mr. Ambassador, we will lead off with you, and then, 
Administrator, we ask you to follow, obviously.
    I do need to announce, unfortunately we just got word that 
there may be as many as three votes in the Senate at about 
11:30, so with that mind, I am probably going to ask for about 
a 5-minute round here. We may have to have a small hiatus and 
recess and then come back, which if it happens it happens, but 
we will try to proceed as expeditiously as we can.
    Mr. Ambassador, thank you.

  STATEMENT OF HON. PRINCETON LYMAN, SPECIAL ENVOY FOR SUDAN, 
            U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Lyman. Thank you very much, Mr. Chairman. Thank 
you for all your leadership on the Sudan issues. Senator Lugar, 
a great pleasure to see you as a great champion in these areas. 
And to all the members of the committee, thank you very much 
for the opportunity. I do ask that the full written testimony 
be made part of the record.
    The Chairman. Without objection it will be.
    Ambassador Lyman. And I will join you in noting with 
sadness the passing of Don Payne. I think all of us who work on 
Africa have looked to him for decades for counsel, for advice, 
for his leadership. We will miss him very, very much.
    I want to talk about several aspects of the situation in 
Sudan and South Sudan, which you and Senator Lugar have 
mentioned. The relationship between the two has been 
deteriorating. And in particularly, the continuing violence in 
Southern Kordofan and Blue Nile is adding to the tension 
between the two countries to border conflicts, and to a 
breakdown in the spirit of negotiations that is necessary to 
deal with oil borders Abyei, and almost anywhere else.
    And both countries are struggling with internal challenges, 
to which you referred, Senator Lugar, and which my colleague, 
Nancy Lindborg, will talk in more detail.
    Turning to the particular crisis in Southern Kordofan and 
Blue Nile, since last June, this conflict has taken place, and 
it has created an enormous humanitarian emergency as well as a 
serious political problem for Sudan and for the relations 
between the two.
    You will hear more about the details of the humanitarian 
crisis from the second panel. Mr. Clooney and Mr. Prendergast, 
just back from that area, and Nancy will have more details. Let 
me talk about what we have been doing in the efforts to control 
this situation.
    From the beginning we have said to both the Government and 
to SPLM North, which are fighting in this area, that there is 
no military solution to this problem. It derives from political 
issues that were not resolved in the final stages of the 
Comprehensive Peace Agreement. It will not be settled 
militarily. And the two sides must eventually return to the 
negotiating table.
    But our immediate concern is with the humanitarian crisis. 
Nancy will talk to the details of how many people have been 
displaced and how serious the crisis is. But since last 
October, we have been saying to the Government in Khartoum that 
this crisis is coming, that you could see that by the nature of 
the war, the bombing of civilian areas, and all the things that 
have been taking place there, the failure of people to be able 
to plant, et cetera, that a major humanitarian crisis was going 
to occur in this area. And we said that the Government of Sudan 
must allow international humanitarian access, and that the 
world cannot stand by, and certainly the United States could 
not stand by, and watch such a crisis unfold if the Government 
did not take action.
    Now, we had recently, and this refers to something that 
Senator Lugar mentioned, a proposal to the Government from the 
United Nations, the League of Arab States, and the Africa 
Union, to carry out an international humanitarian program. I 
can say, members of the committee, that since last October, we 
have contacted virtually every country in the world who would 
have any influence on Khartoum to bring pressure to the 
Government of Sudan to allow such a program. And we were 
delighted when the League of Arab States in particular, along 
with the Africa Union and the U.N., joined in this.
    We have a unanimous resolution of the United Nations 
Security Council--China, Russia, all the rest--calling for 
immediate humanitarian access. We have not received a reply yet 
from the Government. We have some hopeful signs about their 
reaction to that proposal. But we have not yet received 
approval.
    Now, should they approve it, action must be taken very 
quickly. We have a very narrow window before the rains come and 
make all the roads impassable. So, if humanitarian assistance 
is going to come to those areas, it has to come soon. And if an 
internationally carried out program is not underway, we have 
ways for the United States to provide indirect support to the 
Sudanese to reach the most vulnerable people, but it is not the 
most efficient way. The most efficient way is for the 
international access that has been proposed to the Government.
    Now, I would like to turn to some recent events, gentlemen, 
that have occurred since we submitted the written testimony. In 
that written testimony, I described the relationship that had 
been deteriorating between Sudan and South Sudan. And the 
conflict in Southern Kordofan and Blue Nile was contributing to 
that. The shutdown of the oil that has been referred to because 
the two sides could not agree on the financial arrangements in 
the sector, and the Government of Sudan in Khartoum had begun 
diverting South Sudan oil. And frankly, my assessment in my 
written testimony was rather dour.
    But yesterday we received word from Addis where I just 
returned from the negotiations, that the two countries decided 
to step back from the brink. They looked at each other and 
said, we are going in the wrong direction. The papers we have 
put on the table are not going to help the situation. We have 
to step back. We have to go back to that concept that we all 
claimed we were committed to, of two viable states taking care 
of our mutual security and economic needs. And they have set a 
new path forward.
    It will include another summit meeting with President 
Bashir coming to Juba. It would set a new tone for the 
negotiations. It would set out a timetable for dealing with the 
issues of oil, Abyei, and the others.
    Now, we have seen these recommitments before, so while we 
take a great deal of hope from them, a lot will depend on what 
happens over the next several weeks. I want to salute the 
African Union High Level Panel, led by President Mbeki and 
President Buyoya, who, with steadfast determination, inspired 
the two take a different approach to the way they were going. 
And in particular, I want to congratulate the parties for 
stepping back from the brink of what was a deteriorating and 
dangerous situation, and begin to look again at how each of 
them has been destabilized while trying to destabilize the 
other, and each of them are hurt in the process.
    Senator, I would like to also turn briefly to the situation 
in South Sudan. Time does not permit me to go into great 
detail, but as you mentioned, Mr. Chairman, there are a lot of 
challenges in South Sudan. While they have made a lot of 
progress in setting up the Government and doing a number of 
things, it is an extraordinarily poor country with very poor 
infrastructure. There are deep fissures within the society as 
revealed in the crisis in Jonglei, which Nancy will talk about 
further. And the loss of oil revenue only aggravates this 
problem by depriving the Government of badly needed resources.
    So, we have to look very, very carefully and work very 
closely with South Sudan and with Sudan to resolve the oil 
crisis and to help the Government deal with those problems.
    Now, in Darfur in Sudan, as you mentioned, Mr. Chairman, 
there is a little bit of progress, but a long way to go. As 
long as there are 1.7 million people still in camps and another 
280,000 in refugee camps across the border, we cannot say that 
we have really come far from the situation of a few years ago. 
Wholesale violence is down, but there is still a great deal of 
insecurity.
    The Government signed a peace agreement with just one of 
the rebel movements, and we recognize the limitations of that 
agreement. On the other hand, it contains a lot of the elements 
that led to the conflict in the first place, and we will see if 
the Government and its partner will actually implement some of 
these programs.
    We have talked to the movements that did not sign the 
agreement, and several of the armed movements have refused to 
do so. But they, too, say if any benefits from these 
agreements--this agreement for their people, they will be happy 
to see it. But their focus is right now elsewhere.
    Just another comment about the situation in Sudan itself. 
In Sudan, they are also facing an economic crisis. A loss of 
oil revenue has taken away 70 percent of their revenue. Food 
prices are rising. Foreign exchange is very short. And they are 
fighting on three fronts: Southern Kordofan, Blue Nile, and 
still somewhat in Darfur. As we have said previously on many 
occasions, the fundamental challenge in Sudan is the governance 
of the country. There is still a system where the center 
dominates the periphery, where there is a depravation of human 
rights, where wars are fought with terrible violations of 
people's rights and protection. And until that changes, until 
there is a new political situation in Sudan that is inclusive, 
that is democratic, that brings all the people of that country 
together, they will not come out of the problems they have, and 
they will not resolve their differences, not only with the 
United States, but with many other countries of the world.
    That is the task that all the people in Sudan have to turn 
to, and that is true of the people who are fighting, the Sudan 
Revolutionary Front, which has taken up arms against the 
Government. They, too, have to project an image of what Sudan 
would look like. What do they want? How do they see an 
inclusive Sudan so that people can come together with a new 
political system? Until that happens, Sudan will be in 
difficulty, and we urge them to rise to this challenge as well.
    Mr. Chairman, I am happy to answer questions on these and 
other matters, but I hope this gives you a general picture of 
where we have been working. Thank you.
    [The prepared statement of Ambassador Lyman follows:]

          Prepared Statement of Special Envoy Princeton Lyman

                              introduction
    Chairman Kerry, Ranking Member Lugar, members of the Senate Foreign 
Relations Committee, thank you for the opportunity to speak before you 
today.
    First, I want to note with sadness the passing of our good friend 
and committed friend of Africa, Congressman Don Payne. He demonstrated 
enormous dedication to the issues relating to Africa. Over the last two 
decades, he worked tirelessly as an advocate for human rights, as a 
strong, unwavering voice for all Sudanese people and as a partner for 
peace and justice. I had the privilege of welcoming him to South Africa 
in the final days of the transition to democracy. I also had the 
pleasure of accompanying him to the July 9 South Sudan independence 
celebrations in Juba. Over the years, I drew on his wisdom and guidance 
on every Africa issue. His many contributions and dynamic spirit will 
be greatly missed.
    Today I am here to talk about the deteriorating situation between 
Sudan and South Sudan, which continues to be of utmost concern to the 
administration. We are deeply troubled by the continuing violence and 
worsening humanitarian situation in the Nuba Mountains. In addition to 
its devastating humanitarian consequences, the ongoing conflict in 
Southern Kordofan and Blue Nile states in Sudan has fueled the mistrust 
which is poisoning the negotiations between Sudan and South Sudan over 
oil, security, residency rights, borders, and the disputed region of 
Abyei. Adding to these cross-border challenges, both Sudan and South 
Sudan continue to struggle with internal challenges to their viability 
and stability as independent states. We also remain concerned about 
ongoing violence, insecurity, and human rights violations in Darfur, 
though I will detail some areas in which we have seen promise there.
                             the two areas
    Mr. Chairman, since last June we have seen continued conflict and 
an emerging humanitarian emergency in the Sudanese states of Southern 
Kordofan and Blue Nile, known together as the ``Two Areas.'' Fighting 
has continued in this region between the Sudan People's Liberation 
Army-North (SPLA-N) and the Government of Sudan's (GOS) Armed Forces. 
This fighting has led to enormous suffering, displacement, and death. 
The U.N. estimates that more than half a million people have been 
displaced or severely affected by the ongoing conflict. The Sudan Armed 
Forces also continues to engage in aerial bombings, often targeting 
disputed border areas where civilians are located, and sometimes 
spilling across the border into South Sudan. The administration has 
strongly condemned these unjustified and unacceptable attacks. 
Violations of international law create a human rights dimension to the 
ongoing crisis in these areas. Such acts must be investigated and those 
responsible must be held accountable. We continue to demand that the 
Government of Sudan immediately end aerial bombardments of civilian 
areas and immediately allow unrestricted humanitarian access to 
civilians in Southern Kordofan and Blue Nile states. All parties must 
be held accountable for the human rights violations, war crimes, or 
crimes against humanity they commit in Southern Kordofan and Blue Nile. 
We will continue to push for an independent investigation of violations 
of human rights that will contribute to efforts to bring those 
responsible to account.
    In conjunction with our demand to Sudan to halt aerial bombardments 
of civilian areas, we have urged both governments to refrain from 
providing direct or indirect support to armed groups in the other's 
territory. The United States has repeatedly stressed to the Government 
of South Sudan the need to end all support--military, economic, and 
logistical--to armed groups aiming to overthrow the Government of Sudan 
by force. Support to armed groups beyond the territorial boundaries of 
each country further fuels the conflict in Southern Kordofan and Blue 
Nile and destabilizes both nations.
    The United States continues to call for the immediate resumption of 
political talks between the Government of Sudan and the Sudan People's 
Liberation Movement-North (SPLM-N). We are working with our 
international partners to increase pressure on both parties to return 
to the table without delay. We believe a political solution is the only 
path forward, to an end to human suffering, restoring peace and 
security to the Two Areas, and addressing the needs of the people of 
Sudan.
    We remain especially concerned by the worsening crisis in Southern 
Kordofan and Blue Nile. As a result of the displacement of inhabitants, 
disruption of planting and harvests, and loss of livelihoods, 
humanitarian conditions and food insecurity have reached emergency 
levels. The Government of Sudan has prevented international 
humanitarian organizations from gaining access to provide relief to 
vulnerable civilian populations in the Two Areas. According to USAID 
food security partners, in Southern Kordofan, approximately 200,000-
250,000 people will face emergency levels of food insecurity beginning 
in April, and in Blue Nile, approximately 125,000 people will face 
emergency levels of food insecurity beginning in August. More than 
130,000 people have made the difficult walk to cross borders into South 
Sudan and Ethiopia in search of assistance. We are providing life-
saving medical care, food, health care, shelter and other emergency 
assistance for these refugees, and we will continue to support them as 
long as is needed. But for those 200,000-250,000 on the verge of 
emergency conditions in Southern Kordofan, more must be done.
    Since October of last year, we have relentlessly pursued 
unrestricted humanitarian access to the Two Areas with the Government 
of Sudan. I have told the Government of Sudan on numerous occasions 
that we, as the U.S. Government, cannot stand by and watch a crisis 
unfold. We have engaged AU Chairman Jean Ping, AUHIP Chairman Thabo 
Mbeki, U.N. Special Envoy for Sudan and South Sudan Haile Menkerios, 
and U.N. Under-Secretary-General for Humanitarian Affairs Valerie Amos 
who have all reached out directly to the Government of Sudan on this 
crisis. We have demarched a number of countries and organizations with 
influence in Khartoum asking them to raise this with the Government. We 
have worked tirelessly to highlight the issue in the U.N. Security 
Council and at high-profile events to impress a sense of urgency on the 
Government of Sudan. We have also worked to raise awareness of the 
crisis through briefing of the advocacy community and Members of 
Congress. We will continue to press the Government of Sudan at the 
highest possible levels to allow the needed aid to reach affected 
peoples.
    The U.N. Security Council released a press statement in February on 
the crisis in the two areas which called for immediate and unhindered 
access for humanitarian assistance. The Council reiterated this call 
through a Presidential statement on growing violence along the Sudan-
South Sudan border issued just last week. It is important to applaud 
the efforts of the members of the Security Council in issuing these 
unanimous, consensus statements. I want to especially recognize and 
thank our Permanent Representative Ambassador Susan Rice for 
maintaining focus on this vital issue. Our intent is to build on the 
international consensus around this crisis, working with international 
partners to ensure that humanitarian access is granted, and perhaps 
opening the door for peace talks to begin.
    We remain hopeful that our diplomatic efforts and pressures on 
Khartoum will soon yield progress. The U.N., Africa Union, and the 
League of Arab States have made a joint proposal to the Government of 
Sudan for a major humanitarian program in these areas. We very much 
hope this proposal will be approved for it offers the most effective 
means to reach the maximum amount of affected people. While there have 
been some positive signals from the Government in Khartoum about this 
proposal we have not yet heard that it has been approved.
    Should Khartoum agree to allow access to international humanitarian 
organizations across the lines of fighting, there must be swift 
progress on implementation. If necessary, we will examine ways to 
provide indirect support to Sudanese humanitarian actors to reach the 
most vulnerable. We have monitoring and accountability tools to make 
sure that civilians would be the beneficiaries of these activities. 
Nevertheless, an international program, as proposed by the U.N. and its 
partners, is the best means to reach the most people and we continue to 
urge the Government to approve it.
Relations Between Sudan and South Sudan
    Beyond the humanitarian crisis in the Two Areas, this ongoing 
conflict has poisoned the negotiations between Sudan and South Sudan 
translating into a lack of agreement on key unresolved issues remaining 
from the 6-year Comprehensive Peace Agreement interim period. These 
include oil, security, borders, citizenship and residency, and the 
disputed region of Abyei. The African Union High-Level Implementation 
Panel, under the leadership of former South African President Thabo 
Mbeki, continues to facilitate dialogue between the parties on these 
and other unresolved issues. We strongly support the AUHIP process and 
have called upon both Sudan and South Sudan to redouble their efforts 
and continue negotiations in good faith under the auspices of the 
AUHIP. But the tensions between the two and the continued violence 
along the border cast a pall over the process.
    We are increasingly concerned that while both Sudan and South Sudan 
publicly pledge a desire to avoid a return to full-scale war, they 
could well stumble in to it. The growing tension along the undemarcated 
border--reflected in accusations of cross-border attacks, aerial 
bombings and proxy military support to rebel groups--between Sudan and 
South Sudan, has the possibility of spreading into a wider war between 
them and endangering peace in the entire region. Both sides consider 
these border areas critical to their security. This is just one more 
reason that resolution of the Two Areas crisis is urgent. Fortunately, 
the Joint Political and Security Mechanism, a negotiating forum, agreed 
upon by the parties last year continues to provide a vital and useful 
venue to the parties to discuss security and related issues at a 
bilateral level and thus communicate on how to limit provocations. 
However, this mechanism is still maturing and has not realized its full 
potential.
Economy/Governance
    Since July 9, South Sudan has faced the enormous task of building 
the foundations and capacity of its government and economy, finding 
ways to provide necessary services and security to its citizenry, and 
at the same time working to resolve outstanding issues with Sudan. The 
Government of South Sudan has worked with the international donor 
community to develop a strategic plan to meet the needs of its people 
that was publicly unveiled during the December 14-15 South Sudan 
International Engagement Conference here in Washington, DC, at which 
you, Senator Kerry, spoke. I thank you for your continued support.
    As the world's youngest country, South Sudan must find ways to make 
economic progress while working to create strong governmental 
institutions. We continue to encourage South Sudan to demonstrate its 
commitments to democracy, good governance, and respect for human 
rights, and we will continue to provide support and assistance for 
these endeavors. We are happy to see legislative progress in a number 
of areas, where the South has passed its investment laws, and granted 
prosecutorial authorities to its anticorruption commission, to improve 
both transparency and accountability. However, we are increasingly 
concerned about repeated allegations of human rights abuses perpetrated 
by the security services and the increasing reports of abuses by the 
police. The police are a critical institution for establishing public 
trust in the Government. They must not just respect human rights, but 
also promote them. We will also need to continue our efforts to aid in 
the professionalization of the South Sudanese security services which 
will be key to establishing public trust in the Government.
    South Sudan is one of the least developed nations in the world. 
South Sudan must continue to build strong governmental institutions 
while also promoting equitable economic growth and prosperity. Prior to 
the December Engagement Conference, the United States modified our 
licensing policy with respect to goods, technology, and services that 
transship through Sudan to and from South Sudan to allow greater 
investment. This step was designed to encourage additional 
participation by U.S. persons not only in South Sudan's oil sector, but 
in other South Sudanese sectors as well. We also committed to encourage 
investment in South Sudan, promote trade, and coordinate assistance.
    However, South Sudan faces a new economic reality due to the self-
imposed oil shutdown. The international community had built its 
assistance programs on the assumption that the South Sudan Government 
will be a partner in the development of South Sudan, with resources, 
goals, and objectives that we support. The Government has proposed 
austerity measures to address the budgetary shortfall; even with this 
realignment, the proposed measures do not appear to be enough. In this 
new reality, the Government must re-assess its priorities and recognize 
the ramifications on their ability to achieve these goals. Likewise, 
the United States, and the international donor community are 
identifying how the funding gap created by the oil shutdown will affect 
our own programming posture. We cannot--nor should we be expected to--
cover the deep funding gap caused by South Sudan's decision to halt oil 
flows. In this atmosphere it is particularly alarming that OCHA 
predicts that 4.7 million people in South Sudan, more than half the 
population, will be in need of food assistance this year. This looming 
food crisis will demand more attention to emergency measures and there 
are simply not enough resources to accomplish everything.
    South Sudan has to develop a clear short- and long-term strategy 
for addressing this economic situation. It must have a negotiating 
strategy that aims at agreement with Sudan in the near future, even if 
it continues to look at alternate routes for oil exporting over the 
longer term. It must be candid about its austerity plans, both with its 
public and with donors. We have been clear with the Government of Sudan 
that there must be no misplaced calculations about the potential for 
donors to make up the shortfall from lost oil revenue. We have 
similarly warned against unwise borrowing against future oil production 
in ways that will cripple its ability to meet its obligations to the 
South Sudanese people in the future.
The Oil Problem
    Both countries are suffering from the lack of agreement and 
dramatic negotiating tactics in the oil sector. An estimated 75 percent 
of the oil produced prior to July 9 was located in South Sudan, and the 
only pipeline to transport the oil to world markets transverse through 
Sudan for export. Late last year, Sudan began diverting oil from South 
Sudan to its own refinery and storage areas and blocking tankers from 
loading South Sudan oil as a means of collecting the fees it claimed 
were due. South Sudan President Salva Kiir accused Sudan of illegally 
seizing 815 million dollars' worth of South Sudan's crude oil. In 
response, South Sudan halted all of its oil production in early 
February and cut off the flow of petroleum through the pipeline to Port 
Sudan.
    While the shutdown by South Sudan was in response to justified 
concerns over Sudan's diversion of its oil, this action has serious, 
and potentially dire, consequences for a country that depends on oil 
for 98 percent of all revenues. The shutdown is already beginning to 
impact both economies through food price inflation and pressures on 
exchange rates, which will soon be seriously detrimental to both 
populations.
    For its part, South Sudan has announced an ``austerity budget'' 
with a 30-percent cut in expenditures, but it does not appear to have 
feasible alternatives for funding the fiscal gap. This problem is 
accentuated by the Government's decision that salaries for the army and 
police will not be affected, items that account for as much as half the 
regular budget. We are concerned that the loss of revenue will have 
significant negative impacts in terms of the overall stability in the 
South, not to mention serious impacts on the long-term development of 
this new country. South Sudan, as I will detail below, will face a 
number of pressing challenges particularly with security and conflict 
that will require the full resources of the state. While South Sudan 
has announced its intention to build a new pipeline to ports in Kenya 
and potentially through Ethiopia to Djibouti, we believe that an 
alternate pipeline does not provide a near-term solution to South 
Sudan's budgetary shortfall.
    In Sudan, food and fuel prices are rising and a foreign exchange 
scarcity has also forced budget cuts. It is our assessment that neither 
state can afford a long-term disruption of income from the oil sector.
    Negotiations on the oil issue resumed in Addis this past week. 
South Sudan has affirmed that it will provide substantial payment to 
Sudan to ease the shock of Sudan's loss of oil revenue, and as part of 
a package of matters relating to enhancing the mutual viability of both 
states. But the two sides remain far apart on the amount of such 
payment, on commercial aspects of an oil agreement, as well as ways to 
account for the losses from the acts of last year. While we do not 
expect a final resolution of the issue in this round, we hope there 
will be enough progress that would give hope that the issue will be 
resolved soon.
Citizenship
    In early April, the agreed upon ``transitional period'' for South 
Sudanese living in Sudan, and Sudanese living in South Sudan, to either 
leave or regularize their status and obtain documentation to remain 
legal residents of the other state, will end. We have urged the 
Government of Sudan to extend this deadline given the imperative to 
avoid a situation in which some persons will be stateless or living 
without legal documents. Khartoum has not agreed to extend the deadline 
and has sent mixed messages about the safety and continued hospitality 
toward this group of southerners. On a practical level, the Government 
of the Republic of South Sudan must urgently begin issuing nationality 
documentation to its citizens living in Sudan, but to date it has not 
established for adequate process for doing so in Khartoum or anywhere 
else in Sudan. In Addis, negotiations to address this situation have 
bogged down.
Abyei
    In the disputed region of Abyei, the United Nations Interim 
Security Force for Abyei (UNISFA) is now fully operational with over 
3,800 peacekeepers deployed throughout the area. I want to commend 
Ethiopia for supplying these troops and for creating the security 
conditions on the ground that have created the conditions to facilitate 
negotiations on Abyei's final status. For the first time in 3 years the 
nomadic Misseriya population has been able to migrate into Abyei with 
some 2 million head of cattle without confrontation or violence. The 
Ethiopian Force Commander was particularly skillful in working directly 
with the communities to make this happen. The Abyei Joint Oversight 
Committee (AJOC) is one of the most valuable agreements to come out of 
the AUHIP negotiations, with strong assistance from Secretary of State 
Clinton. AJOC provides for joint administration of Abyei by both Sudan 
and South Sudan until its final status is resolved.
    Nevertheless, neither side has fully lived up to the commitment to 
withdraw all armed forces from Abyei. The continued presence of such 
forces--elements of the Sudanese Armed Forces, and South Sudan Police 
Services--threatens the peace and is inhibiting the return of the 
displaced Ngok Dinka. Disagreement over one appointed position has held 
up establishment of the Abyei Area Administration. Further, I urge both 
Parties to fully implement the AJOC decision of December 2011 and 
January 2012 to allow joint humanitarian access from both Sudan and 
South Sudan in order to create the conditions necessary for the 
voluntary return of displaced persons as well as provide for migrating 
Misseriya through Abyei.
    The AUHIP's engagement on all these issues has made dialogue 
between the parties possible. However, given the dire conditions on the 
ground--including the oil shutdown and the ongoing violence in the Two 
Areas--the negotiations have not made significant progress in recent 
months. We will continue to reach out to other international 
stakeholders to support the AUHIP's ongoing efforts. Key partners, such 
as China, Arab States, regional leaders, the EU, and our Troika 
partners (U.K. and Norway), play a positive role already in engaging 
with both states to help peacefully resolve outstanding issues. But a 
more proactive effort is likely to be needed over the next few months.
Ethnic Violence
    The economic challenge is all the more serious when one looks at 
the internal problems of stability in South Sudan and the need for even 
more attention to local development needs. Deep and longstanding ethnic 
rivalries and patterns of mutual violence are posing major challenges 
to the country. The most recent outbreaks of violence and reprisals 
came to a head in Jonglei State late last year, when conflict between 
the Lou Nuer and Murle tribes resulted in many deaths and injuries, the 
displacement of over 50,000 people, and new humanitarian aid needs for 
approximately 140,000. There are reports of further reprisal attacks 
being planned and Lou Nuer refugees are showing up in Ethiopia. To 
break the cycle of violence, it is imperative that the Government of 
South Sudan take immediate actions to mitigate the violence, while also 
finding ways to address the systemic causes of violence. This includes 
conducting credible investigations so that perpetrators of the 
violence, and other human rights abuses, can be held accountable, 
providing alternative means to resolve conflicts, securing development 
opportunities, and promoting a strong sense of South Sudanese national 
identity. We encourage the Government of South Sudan to seek necessary 
assistance from the international community in undertaking these 
efforts.
    The United States Government supports the U.N. Mission in South 
Sudan's (UNMISS) efforts to address this violence. UNMISS is working 
with South Sudan on the adoption and implementation of a comprehensive 
peace and stability plan in Jonglei, as well as in other states 
suffering from intercommunal and interethnic violence such as Unity, 
Lakes, and Warrap. The international community has been focused on this 
issue, and the United States believes it is critical that the 
Government of South Sudan continues to avoid premature, forced 
disarmament campaigns. Disarmament campaigns should be conducted in a 
voluntary and simultaneous manner, as part of a broader peace and 
reconciliation plan and in conjunction with the stabilization of 
conflict regions, in order to avoid further conflict or severe human 
rights abuses. All of these efforts will take time, high-level 
attention, and resources from the Government of South Sudan.
                                 sudan
    In Sudan, there are many obstacles to improvement in relations 
between our two countries from improving. There has been little change 
in center-periphery power dynamics that have plagued Sudan throughout 
its history. The development of the Sudanese Revolutionary Front, an 
alliance of rebel movements throughout Sudan, is the latest symptom of 
this dichotomy. We believe that the conflicts both in the Two Areas and 
in Darfur cannot be solved militarily. Military action will only lead 
to stalemate and prolonged suffering by the people of Sudan. We urge 
these parties to refrain from conflict and state their political 
demands clearly. The United States continues to support the aspirations 
of all Sudanese. As part of the transition after the independence of 
South Sudan, Sudan has committed to drafting a new constitution. We 
urge the Government of Sudan to conduct an inclusive, broad-based 
constitutional review process. Constitutional and other reforms should 
ensure the protection of human rights and fundamental freedoms, 
including women's rights and freedom of religion.
    We recognize that the Government of Sudan is responsible for 
serious human rights violations, and enormous suffering for its own 
people, and its actions against innocent civilians are unacceptable. 
However, violent regime change is not the answer. With the 
international community, we continue to press the Government of Sudan 
to halt the use of force against its own people and the abuse of basic 
human rights and to state our strong belief that accountability is an 
essential component for achieving a durable peace for all of the people 
of Sudan. We think that change in Sudan comes from within, by peaceful 
and democratic means.
    We are also working hard with the AUHIP to encourage resolution of 
key issues between Sudan and South Sudan. We believe that only by 
having two viable states can there be peace between and within the two 
countries. This objective guides our approach to the oil, borders, 
trade, and other issues under negotiation.
                                 darfur
    Mr. Chairman, allow me also to spend some time updating you on the 
political, security, and humanitarian situation in the troubled region 
of Darfur. As long as some 1.7 million people remain in camps in Sudan, 
and over 280,000 refugees in neighboring countries, Darfur cannot be 
seen as having recovered in any major sense from the destructive war of 
the earlier period. While overall levels of violence are down, there 
remains serious insecurity, human rights violations, inadequate social 
services, and an uncertain political dispensation for the region.
    The signing of the Doha Document for Peace in Darfur in July 2011 
between the Government of Sudan and the Liberation and Justice Movement 
(LJM), one of Darfur's rebel groups, provides an opportunity to take 
some much-needed steps forward in Darfur. We recognize fully the limits 
of this agreement. Several of the major rebel groups have refused to 
sign on to it, and the promises in it remain to be fulfilled. 
Nevertheless, because the elements in the DDPD cover many of the basic 
issues that had driven the conflict in Darfur, it is an opportunity to 
make some significant progress if it is faithfully implemented. Since 
the signing of this comprehensive agreement, we have called on the GOS 
and LJM to implement the provisions faithfully and expeditiously. In 
that regard, there has been some political progress, notably with the 
establishment of the Darfur Regional Authority, the National Human 
Rights Commission, the Special Court for Darfur, as well as the 
nomination of a new Special Prosecutor. Other key bodies, such as the 
Compensation Fund and the Land Commission, have yet to be fully 
constituted or operationalized. More important than the establishment 
of these institutions is whether they actually will be able to function 
effectively to bring security, justice, basic services and economic 
development to the people of Darfur. The Darfuri populace, particularly 
the IDPs, will judge the agreement on these merits. The next year will 
be a critical period to see whether this agreement can gather real 
momentum and whether the Government of Sudan is seriously committed to 
its implementation. We have been working closely with our international 
partners and the U.N./AU Mission in Darfur (UNAMID) to press the 
Sudanese Government and the LJM to follow through on their commitments 
found within this detailed peace agreement.
    While the implementation of the Doha agreement is gradually moving 
forward, insecurity and conflict persist in Darfur, due mostly to 
lawlessness and banditry but also to continuing clashes between 
Sudanese Government forces and militias, and those rebel movements 
which have not signed the Doha Document. Sudanese Armed Forces bombings 
in civilian areas also continue. We have been particularly concerned by 
recent fighting South of El Fasher, the capital of North Darfur, which 
has led to ongoing displacement of civilians and to allegations of a 
deliberate policy to target the Zaghawa population in that area. 
Unfortunately, the Government of Sudan continues to rely on the Central 
Reserve Police, or CRP, a paramilitary unit made up of former Janjaweed 
members, for security in parts of Darfur, including in areas close to 
IDP camps. UNAMID and local populations routinely reports on human 
rights abuses committed by the CRP--a.k.a. Abu Tira. We urge the 
Government of Sudan to rein in these forces by investigating their 
abuses and prosecuting those responsible.
    While the Doha Document is a step forward toward peace, only one 
Darfuri rebel group has signed. Unfortunately, at this stage, an 
inclusive peace agreement between the Government of Sudan and all of 
Darfur's main rebel groups remains elusive. Since November 2011, the 
political leadership of Darfur's rebel movements has made common cause 
with the SPLA-North by forming the Sudan Revolutionary Front, an 
alliance with the overt goal of overthrowing the Sudanese Government 
through military action and a popular uprising. In December 2011, the 
Sudanese Armed Forces targeted and killed Khalil Ibrahim, the Chairman 
of the Justice and Equality Movement (JEM), one of Darfur's more 
militarily significant rebel movements. This development contributed to 
a hardening of the rhetoric on all sides. Darfur's rebel movements, 
notably JEM, have increasingly participated in coordinated military 
attacks with SPLA-North on Sudanese Armed Forces in Southern Kordofan.
    In our dialogue with Darfur's rebel leaders, they appear 
increasingly bent on regime change in Khartoum and reluctant to 
negotiate with the Sudanese Government exclusively on Darfur. We have 
urged them not to take military action in Darfur that would undermine 
the Doha agreement; rebel groups JEM and SLA/Minni Minawi have agreed 
and have said they would welcome any social and economic improvements 
in the life of the Darfur people that the DDPD might accomplish. We 
have also made clear to Darfur's rebel movements and to SPLM-North that 
continued insistence on the armed overthrow of the Sudanese Government 
will only lead to further conflict and possibly ethnic polarization. We 
have urged the armed movements instead to articulate and emphasize 
their political platform, and to be ready to engage in negotiations 
with the Government of Sudan. Along with our international partners, we 
continue to believe that Darfur's rebel groups which have not signed on 
to the Doha agreement should articulate their demands on Darfur in 
terms of the Doha Document for Peace in Darfur.
    Finally, we believe that a lasting peace requires justice and 
accountability. We strongly support international efforts to bring to 
justice those responsible for genocide, war crimes, and crimes against 
humanity in Darfur. And we note that it is especially important for the 
international community to show its support for accountability at a 
time of mounting violence elsewhere in Sudan.
    Mr. Chairman, I would like to say a word on the United Nations--
African Union Hybrid Operation in Darfur (UNAMID). We see support for 
UNAMID as an integral element of our policy to improve security for 
Darfuri civilians, and UNAMID is doing an effective job in a 
challenging environment. But we are concerned by a wave of fatal 
attacks on UNAMID and restrictions imposed by the Government of Sudan, 
and in some cases by rebel groups, on its operations. We are urging the 
Sudanese Government to investigate these attacks and prosecute those 
responsible, while also working with our international partners and 
troop-contributing countries to improve UNAMID's overall performance 
and ability to push back on these GOS imposed restrictions. UNAMID must 
be given full access to the region in order for it to fulfill its 
mandate. The Government of Sudan should see UNAMID as a partner in 
facilitating the implementation of the DDPD. Fortunately, in some areas 
of Darfur--particularly in West Darfur--the security situation has 
improved considerably, to the extent that some refugees and internally 
displaced persons have started to return to these areas. Two thousand 
eleven marked the first year that there were more verified cases of 
voluntary returns than new displacements.
    As the situation develops, State and USAID are working together to 
take advantage of these opportunities to meet the evolving needs of 
Darfuris for sustainable livelihoods, where security and access permit, 
and to reduce their long-term dependency on humanitarian assistance. 
This approach illustrates the United States long-term commitment to 
helping the people of Darfur overcome the destructive effects of 8 
years of conflict.
                               conclusion
    Mr. Chairman and other members of the committee, the challenges 
ahead are great. We are gravely concerned that Sudan and South Sudan 
are drifting away from the commitments of peace and collaboration that 
each promised in the context of the Comprehensive Peace Agreement. The 
immense challenges we face in both countries require hard decision and 
difficult diplomacy. We are committed to two independent, viable states 
at peace internally and with one another. We will continue to work with 
both parties and our international partners toward that goal so that 
the outstanding issues between these two states are resolved at the 
negotiating table.

    The Chairman. Indeed it does, Ambassador. Thank you very 
much. Very helpful, and we look forward to following up with 
questions.
    Administrator Lindborg.

 STATEMENT OF HON. NANCY LINDBORG, ASSISTANT ADMINISTRATOR FOR 
THE BUREAU OF DEMOCRACY, CONFLICT AND HUMANITARIAN ASSISTANCE, 
   U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Ms. Lindborg. Thank you. Chairman Kerry, Senator Lugar, 
members of the committee, thank you very much for having this 
hearing today and letting us talk together about Sudan and 
South Sudan.
    I would echo your and Ambassador Lyman's sentiments on the 
passing of our friend and colleague, Congressman Donald Payne, 
and just note that Administrator Shah of USAID just launched 
the Donald Payne Fellowship that will encourage members of 
minority groups who are historically underrepresented in 
development careers to join USAID. So, we are honored to help 
foster his legacy through this fellowship.
    As you noted, only 8 months ago we celebrated the peaceful 
separation of South Sudan from Sudan in a moment of almost 
euphoric hope. And despite the positive momentum of that 
peaceful referendum, these two nations as we knew at the time 
faced considerable challenges: a legacy of 50 years of 
conflict, a set of unresolved issues from the Comprehensive 
Peace Agreement, the stresses of severe underdevelopment in 
South Sudan, which ranks as one of the poorest countries on 
earth.
    And while there has been progress, we are deeply concerned 
that the reemerging conflicts in the region that are 
undermining the peaceful pathway for both of these two nations, 
and are creating grave new humanitarian crises.
    We are very focused on the potential challenges and 
solutions of the heightened crisis in each of the three areas: 
Southern Kordofan, Blue Nile, and Abyei; the intercommunal 
violence in South Sudan; the challenges of shorting out 
nationality and status after one country becomes two; and the 
not yet resolved 8-year crisis in Darfur.
    My written testimony has details on each of these 
flashpoints, as well as some of the challenges resulting from 
the oil revenue shortfall and austerity measures. But for 
today, in the interest of time, let me just focus on two of 
these critical issues, the Two Areas and the rising 
intercommunal conflict in South Sudan. And I would be happy to 
answer any other questions following.
    In the Two Areas, heavy fighting between the Sudan Armed 
Forces and the SPLM-North since last June has resulted in over 
130,000 refugees that have moved into South Sudan and 
neighboring Ethiopia. Inside South Kordofan, there are 300,000 
displaced and severely affected, and another 60,000 inside Blue 
Nile.
    We have seen heavy aerial bombardment, long-range shelling 
that has terrorized communities. It has cut off people's access 
to food, health care, livelihoods, trade. The last planting 
season was disrupted, and reports are indicating that the 
coping mechanisms of these families and communities for 
survival are being exhausted in certain parts of the region.
    International humanitarian access has been largely blocked 
since the beginning of this conflict, and the Government of 
Sudan continues to prevent aid from reaching the many civilian 
Sudanese who are desperately in need.
    USAID's humanitarian partners are continuing their efforts 
to provide assistance to those Government of Sudan-controlled 
areas of South Kordofan, and reports are indicating some 
progress there. However, for those who are in the areas 
controlled by the SPLM-North, the outlook is worsening. Current 
predictions are that up to 250,000 people in those areas now 
face a serious emergency, which is one step short of famine, by 
the end of April if the violence and the restrictions on 
humanitarian access continues.
    It is imperative to have immediate humanitarian access to 
all the communities affected by the conflict in South Kordofan 
to stave off an emergency situation for a quarter of a million 
people in the coming months.
    Similarly, Blue Nile is facing equally devastating impacts, 
and as with South Kordofan, access will be very limited in May 
once the rains begin.
    As Ambassador Lyman said, we are very hopeful the 
Government of Sudan will sign the tripartite agreement and 
allow negotiated access as proposed by the U.N. and its 
partners. If necessary, we will examine ways to provide 
indirect support to Sudanese humanitarian actors to ensure the 
most vulnerable receive assistance. Should the Government of 
Sudan sign the agreement, we stand ready to immediately deliver 
food and humanitarian assistance to those in need.
    Let me briefly highlight the explosion of violence that 
occurred recently in Jonglei state in South Sudan, along with 
other intercommunal violence that has plagued the South, 
because these incidents really underscore the fragility and 
fledging nation of the new state, and the need for deeper 
engagement for us to mitigate the instability and to continue 
to promote accountability.
    We were able to respond with emergency assistance in 
Jonglei state with water, sanitation, food, and hygiene, and we 
are standing ready to provide assistance to those needs across 
the South. But resolving these issues and conflicts in the long 
term will require sustained engagement with the Government of 
South Sudan and from the Government of South Sudan. Without 
their pledge to address security, corruption, and governance 
issues, donor help will not be sufficient to achieve stability.
    Coming so soon after the celebration from South Sudan, this 
confluence of crises is very alarming to us. And there has been 
progress. Just to note that with United States assistance and 
the commitment of many of you on this committee, we have been 
able to help transform the Government of South Sudan from a 
concept to a government. And more than a million people now 
have access to clean water. Children's enrollment in schools is 
up from 20 percent to 68 percent. These are accomplishments to 
celebrate. And the referendum on self-determination was itself 
an extraordinary success.
    And unfortunately, we are seeing how long it takes to 
emerge from half a century of conflict, and with even a sturdy 
peace agreement, the perniciousness that that will continue as 
we look at what will be a long-term effort.
    Thank you for the focus of this committee for your 
continued attention. It is needed. This will be a long journey. 
And we must stay engaged to enable success for these two new 
nations. Thank you.
    [The prepared statement of Ms. Lindborg follows:]

                  Prepared Statement of Nancy Lindborg

    Chairman Kerry, Ranking Member Lugar, Members of the Senate Foreign 
Relations Committee, I appreciate your giving me the opportunity to 
speak before you today on the rising humanitarian crises in Sudan and 
South Sudan.
    Before I begin, I want to echo Ambassador Lyman's sentiments on the 
passing of our friend and colleague, Representative Donald Payne. 
Congressman Payne championed USAID's work around the world, while also 
challenging us to always strive to do better. As a tribute to this 
great leader, Administrator Shah has launched a fellowship, named in 
Congressman Payne's honor, that will encourage members of minority 
groups who have historically been underrepresented in development 
careers to join USAID. There have been few greater friends of USAID, 
and Congressman Payne's legacy of helping people around the world will 
continue through this fellowship.
                              introduction
    Only 8 months ago, we celebrated the peaceful separation of South 
Sudan from Sudan as a sign of great hope for a people who have endured 
war for the greater part of half a century. We also knew that despite 
the peaceful referendum, these two nations faced considerable 
challenges that would not be quickly surmounted, including severe 
underdevelopment in South Sudan, ranking it at the bottom of most 
development indices, and a series of unresolved disputes.
    However, we are deeply concerned at the reemerging conflicts in the 
region that are undermining hopes for a peaceful pathway for these two 
new nations and that are creating grave new humanitarian crises. 
Southern Kordofan, Blue Nile, Abyei, Jonglei: each of these areas has 
been plunged into uncertainty and suffering for a wide range of 
preventable reasons and requires a wide range of assistance to meet the 
needs of the people who live there. Unresolved conflict in Darfur has 
made a permanent impact on the livelihoods of the region, and we still 
see over 1\1/2\ million people displaced. In South Sudan, rising 
intercommunal conflict, the steady and potentially increasing flow of 
returns, and the Government of South Sudan's recent decision to cut off 
oil production, effectively suspending the flow of 98 percent of state 
revenues, have heightened our concern for the future stability and 
long-term health of the world's newest nation.
                            the three areas
    Amid the euphoric anticipation of independence for South Sudan, 
fueled by an overwhelming and peaceful referendum vote for separation 
in January 2011, we saw an alarming trend of troop buildups and an 
interruption in the implementation of the Comprehensive Peace Agreement 
(CPA) along the contested border regions known as the Three Areas. The 
downward trend ignited conflict just 1 month short of South Sudan's 
independence, in effect halting the critical popular consultations to 
resolve the political landscape of this region and triggering a fresh 
round of humanitarian crises.
Southern Kordofan
    In Southern Kordofan, a mountainous area in the southern part of 
Sudan along the border with South Sudan, heavy fighting between the 
Sudan Armed Forces (SAF) and Sudanese People's Liberation Movement-
North (SPLM-N) since June of last year has severely affected or 
internally displaced an estimated 300,000 people. Heavy aerial 
bombardment and long-range shelling have terrorized communities, ruined 
the last cultivation season and harvest and, in addition to cutting off 
livelihoods and trade, have cut off hundreds of thousands of people 
from access to health care and basic services.
    International humanitarian access has been largely blocked since 
the beginning of the conflict, and the Government of Sudan continues to 
prevent aid from reaching Sudanese civilians in need. Reports indicate 
that in parts of South Kordofan, coping mechanisms are being rapidly 
exhausted. USAID food security experts expect that 200,000-250,000 
people in Southern Kordofan may face a food emergency \1\ by the end of 
April if the violence and restrictions on humanitarian access continue.
---------------------------------------------------------------------------
    \1\ Integrated Food Security Phase Classification (IPC) Phase 4
---------------------------------------------------------------------------
    Although lack of access has restricted our ability to do needs 
assessments and gather precise data, we estimate that since the start 
of the conflict approximately 300,000 people are internally displaced 
or severely affected in Southern Kordofan, and approximately 55,000 
people have made dangerous escapes into South Sudan or have sought 
refuge elsewhere inside Sudan. In South Sudan, USAID and the State 
Department's Bureau of Population, Refugees, and Migration are working 
with the United Nations (U.N.) World Food Programme (WFP) and the 
Office of the U.N. High Commissioner for Refugees to ensure that 
adequate assistance is available to the Southern Kordofan refugees, who 
are mostly congregated in Unity State, and currently number about 
16,000. Concerns about the safety of refugees are growing, as cross-
border aerial bombardments by the Sudan Armed Forces are not abating.
    The U.S. Government's humanitarian partners continue their efforts 
to increase their ability to provide assistance to those in government-
controlled areas of South Kordofan. We have indications that access may 
be gradually improving. One partner recently managed to reopen five 
suboffices, out of seven planned before the conflict, and is able to 
support a vaccination program in government-controlled areas to improve 
coverage from 74 percent to 90 percent. That partner has reopened 15 
nutrition centers, trained 200 volunteers to screen children and 80 
health staff to improve the capacity of the nutrition centers, and 
resumed training and providing supplies to village midwives. In late 
February, the U.N. World Food Programme was able to provide 40 days' 
worth of food rations to approximately 16,700 internally displaced 
persons in Kadugli. The Government of Sudan has granted permission for 
four international staff of U.N. agencies to return to Kadugli, but all 
U.N. staff in Kadugli face strict restrictions on their movements and 
activities and are precluded from assessing needs and delivering 
assistance beyond the town limits.
    However, for those who remain in areas controlled by the Sudan 
People's Liberation Movement-North (SPLM-N), the outlook is worsening. 
Immediate humanitarian access to all communities affected by the 
conflict in Southern Kordofan is imperative to stave off emergency 
conditions for a quarter of a million people in the coming months.
    The United States is working with international partners to press 
for access through an intensive diplomatic campaign that began last 
September. Current efforts are focused on getting a positive Government 
of Sudan response to the tripartite proposal of the U.N., the African 
Union, and the League of Arab States on assessment, access, and 
monitoring of humanitarian assistance to all civilians in Southern 
Kordofan and Blue Nile. Should the Government of Sudan sign this 
agreement, USAID partners and the U.N. are ready to conduct assessments 
and immediately deliver food and humanitarian assistance to those in 
need. International staff of humanitarian organizations must be allowed 
to enter and operate freely in Southern Kordofan in order to save 
lives.
    As we have said repeatedly over the past 6 months, the United 
States cannot stand by and watch such a human tragedy unfold. Our goal 
is to prevent this humanitarian situation from worsening any further, 
and we are exploring options for providing indirect support in a worst 
case scenario in which the Government of Sudan continues to refuse to 
open humanitarian access. There is no fully effective humanitarian 
option save for negotiated access, but again, I want to be clear that 
doing nothing cannot be an option.
Blue Nile
    Fighting in the Blue Nile area erupted almost 3 months after 
Southern Kordofan. It has resulted in similarly disturbing levels of 
displacement, with over 110,000 already in Ethiopian and South Sudanese 
refugee camps. Approximately 60,000 people are estimated to be severely 
affected or internally displaced within Blue Nile. Although USAID food 
security partners have postponed emergency forecasts for Blue Nile 
until August, that date is rapidly approaching, and we will continue to 
work with the international community to find the best possible options 
for getting aid to vulnerable people.
    The rainy season, beginning in mid-May, will limit the ability of 
vulnerable populations to exit Blue Nile and seek protection in 
neighboring countries. Although a recent U.S. Government assessment 
mission to Upper Nile/South Sudan confirmed that there is sufficient 
food on hand to support the more than 80,000 refugees located there, we 
are fully engaged in planning to make sure that the international 
community can cope effectively with expanding refugee populations in 
the coming months.
Abyei
    Although key components of the Comprehensive Peace Agreement (CPA) 
were implemented relatively smoothly in South Sudan, the Abyei protocol 
is dormant. The final status of Abyei--whether it belongs to Sudan or 
South Sudan--remains unresolved, and crisis erupted on May 20, 2011, 
around this issue. A military operation conducted by the Sudan Armed 
Forces and subsequent fighting caused 110,000 people--the majority of 
the Abyei Area's population--and international NGOs to move southward 
toward Agok and to destinations across South Sudan, yet again.
    The Abyei Area had long been a site of conflict and tension and was 
one of the key potential flashpoint areas during the referendum period. 
In preparations made in advance of the South Sudan vote, USAID partners 
had prepositioned supplies in key hubs to enable a rapid response if 
needed. After the May conflict, USAID partners were able to distribute 
plastic sheeting, blankets, water containers, soap, and other emergency 
relief supplies to 68,000 people in need in a matter of weeks, while 
USAID's partner, the World Food Programme, provided food to more than 
100,000 displaced people. During the ensuing weeks, it became clear 
that those who had fled the fighting would not return home for several 
months and continued assistance would be necessary. Before Agok became 
inaccessible by road during the rainy season that began in mid-May, 
WFP--tapping into USAID-funded enhanced logistical capabilities--was 
able to deliver large quantities of food to Agok to provide 3 months of 
food rations for the displaced. The USAID-funded repairs to an airstrip 
in Warrap State also proved critical, permitting humanitarian supplies 
to reach a large number of displaced people throughout the rainy 
season.
    USAID's humanitarian partners continue to adapt to evolving 
circumstances and are providing vital humanitarian assistance for the 
displaced, most of whom remain in Agok town on the border between Abyei 
Area and Warrap State, South Sudan. Our partners continue to run health 
clinics, distribute food, provide nutrition assistance, and address 
water and sanitation needs of the displaced population. USAID partners 
have recently established a new primary health care unit, constructed 
latrines in five schools, and provided hygiene training in three 
villages.
    Though the situation is tenuous, the Abyei Area holds more promise 
for a return to stability and peace than its neighbors in conflict-
ridden Southern Kordofan and Blue Nile. Virtually all who fled Abyei 
remain displaced in Agok, and they will not, and cannot, return until 
the conditions improve: better security, land mine removal, and 
assurances that civilians will be protected. However, the efforts of 
Ethiopian peacekeepers have brought Abyei much-needed stability, and if 
current diplomatic efforts bear fruit, our partners are poised and 
ready to lay the groundwork for the resumption of basic services, 
livelihoods, conflict mitigation and community peace-building 
activities in Abyei.
Darfur
    Nine years into the Darfur conflict, we continue to see violence 
flare in hotspots like North Darfur and Jebel Marra. The U.N. reports 
that approximately 1.7 million people currently reside in 99 camps 
across Darfur--an 8-percent reduction from 1 year ago. Of this total, 
70,000 were displaced during 2011 due to ongoing fighting.
    The most vulnerable who were displaced by the conflict--including 
the disabled, elderly, women, and children-headed households--remain 
highly dependent on the basic services provided by the humanitarian 
community. Those living in remote, rural areas are also vulnerable to 
the effects of food insecurity, interrupted livelihood patterns, and 
limited access to basic services.
    USAID continues to respond to the emergency needs of the newly 
displaced. Severe limitations on access, however, continue to constrain 
our emergency relief efforts. Our partners still face bureaucratic 
restrictions and other impediments to travel which, combined with 
insecurity, reduce their ability to carry out programs efficiently and 
where needed. The United States continues to advocate strongly for 
regular access for all humanitarian agencies throughout stable areas of 
Darfur.
    However, while a political settlement to this crisis remains out of 
reach and conflict persists, there are also a growing number of people 
emerging from their dependence on humanitarian aid, and USAID programs 
are evolving to address the needs of these new populations. We are 
seeing more families returning seasonally to plant their fields and 
test their ability to return more permanently. We are seeing more 
permanent returns, where people are determined to move back to their 
homes and villages. Last, more large camps on the periphery of major 
towns are transforming into permanent perisettlements.
    The prolonged crisis has dramatically altered the traditional 
coping systems of Darfurians. Migrations to urban and periurban 
locations have shifted livelihood priorities, disrupted markets, and 
impeded access to agricultural land. At the same time, these conflict-
affected people have evolved their coping and livelihoods strategies in 
a way that has reduced their need for emergency assistance.
    USAID does not actively promote the return of individuals from 
camps to areas of origin. Instead, we respond to the needs of 
individuals who have already voluntarily returned where security and 
access permit, and have been independently verified to have done so 
voluntarily. Since January 2011, the U.N. has verified the return of 
approximately 110,000 internally displaced persons and 15,000 refugees 
from Chad. The great majority of verified returnees have returned to 
West Darfur, where the security environment has markedly improved due 
to joint Chad-Sudan patrols along the border and the relocation of some 
armed movements to North and South Darfur.
    All of these dynamics have shifted our assistance strategies from 
emergency response to integrated early recovery programs that aim to 
reduce dependence on humanitarian assistance and promote sustainable 
livelihoods and self-reliance where security permits. Today, 44 percent 
of USAID's funding in Darfur is dedicated to community-based early 
recovery programs, up from zero in 2009--a powerful illustration of how 
the needs have changed. USAID partners engaged in early recovery 
initiatives recognize the need to support livelihoods programs that are 
market-driven and economically feasible, conflict-sensitive, 
environmentally sustainable, and built on local skills and capacities. 
These community-based approaches strengthen local capacity and 
resilience to food insecurity.
                                returns
    Since October 2010, approximately 360,000 South Sudanese have 
returned from Sudan to their new country. Armed with hope and 
expectations for a new life in their homeland, many returnees arrived 
to discover limited basic services and other challenges. As the 
Government of Sudan's April 8, 2012, deadline for South Sudanese living 
in Sudan to regularize their status looms, both governments must take 
urgent steps to extend the deadline--which affects anywhere from 
300,000 to 700,000 people--and make practical arrangements whereby 
those who wish to stay in Sudan can apply to do so. Absent these 
actions, we may witness up to hundreds of thousands of South Sudanese 
stranded as they try to return without resources and security. We fully 
support robust diplomatic efforts to press the Government of Sudan to 
extend this deadline and parallel efforts urging the Government of 
South Sudan to expedite the issuance of nationality documents to this 
population.
    On February 12, 2012, the South Sudanese Minister for Humanitarian 
Affairs and Sudanese Minister for Social Welfare signed a memorandum of 
understanding affirming the right of South Sudanese in Sudan to return 
to South Sudan voluntarily, safely, and with dignity. However, the 
memorandum makes no mention of the practical arrangements needed for 
Southerners to regularize their citizenship and residency status in 
Sudan, nor does it extend the April 8 deadline. It also excludes the 
use of barges, the most cost-effective means, for moving people from 
Sudan to South Sudan.
    In South Sudan, support to returnees is complicated by a growing 
range of humanitarian emergencies and restricted access due to 
conflict, rains, and poor infrastructure. Overall the U.N. estimates 
that 2.7 million South Sudanese will be food insecure in 2012, of which 
approximately 1 million will be severely food insecure.
    The U.S. Government is preparing contingency plans for the 
potential movement of up to 500,000 returnees, as well as continuing 
support to returnees in transit. In addition to bolstering resources at 
transit sites and exploring options for new locations, USAID's programs 
include flexible mechanisms like rapid response funds that enable a 
quick response to emerging emergency needs, as well as support to 
contingency planning efforts through prepositioning of life-saving 
humanitarian supplies.
    Once returnees reach their final destinations, they face the 
challenge of reintegrating into host communities that primarily rely on 
agriculture to meet their basic needs. To jump-start the returnees' new 
lives in South Sudan, USAID programs are improving access to basic 
services like clean water and health care and implementing market-
driven programs to help farmers improve their agriculture practices and 
enhance families' food security and livelihoods opportunities.
    In Unity State, which has received the highest number of returnees 
in South Sudan to date, USAID provided farmers with seeds and 
horticultural skills training to expand vegetable production and 
increase their income. Small businessowners were provided cash grants 
and training to enable them to hire more staff and to access community-
based credit. Enlisting the support of local government and religious 
authorities and soliciting input from returnees and their hosts through 
18 community mobilization meetings, USAID is building upon existing 
agricultural potential and investing in market-driven livelihoods 
opportunities to promote the peaceful reintegration of approximately 
4,500 returnees in Unity State.
                  south sudan's intercommunal conflict
    Unfortunately, in addition to the enormous human toll of conflict 
within Sudan, and across the Sudan-South Sudan border, the past few 
months have also seen significant loss of life and displacement from 
intercommunal conflict within South Sudan. Recent violence in Jonglei 
between the Lou Nuer, Murle, and Dinka ethnic groups has affected at 
least 140,000 people since late December 2011. These and other clashes 
are a product of unresolved interethnic and intertribal issues that 
were sidelined to meet the common goal of South Sudan's independence--
and highlight the fragility and fledgling nature of the new state, and 
the need for deeper engagement that mitigate instability and promote 
accountability.
    We are troubled by the lack of budgetary and political support by 
the Government of South Sudan to state and local authorities on the 
front lines of responding to the conflict. USAID has been providing 
local and state authorities the equipment they need to communicate 
quickly and effectively with each other in remote areas, as well as 
building or rehabilitating county and other local administrative 
headquarters buildings, which provides an administrative base and 
meeting space to address community violence. For instance, high-
frequency radios and other equipment USAID provided to local and state 
authorities have, in some cases, prevented violence when authorities 
were able to warn communities about planned revenge attacks. We are 
also working to engage at-risk youth in productive, income-generating 
activities.
    Unfortunately, significant, persistent violence continues to cost 
lives. There is strong evidence that some political leaders have been 
complicit in organizing, enabling, and coordinating the violence. There 
are also reliable reports of security services joining raiding parties, 
providing ammunition, and looting. The Government forces deployed to 
conflict areas to mitigate the conflict lack resources and capacity. 
These trends highlight larger issues of political will and government 
capacity to genuinely address these intertribal and intercommunal 
tensions. The Government of South Sudan must own and drive a peace 
process and reconciliation initiative in Jonglei and other conflict 
regions that will be anchored around direct engagement with the core 
conflict catalysts in order to have greater effect.
    To respond to urgent humanitarian needs in Jonglei State, USAID 
water, sanitation, and hygiene activities have benefited 31,500 people 
affected by the fighting, which damaged water points and forced 
displaced and host populations to share limited water resources. In 
addition to rapid response actions, USAID supports multisectoral 
humanitarian programs in areas affected by recent fighting. For 
example, one grantee is repairing the semiurban water system in Pibor 
town and installing five boreholes in Pibor County, while others are 
implementing health and nutrition initiatives in Akobo and Duk 
counties.
    We will continue to respond to humanitarian needs across South 
Sudan, whether as a result of interethnic conflict, militia violence, 
large-scale returns, or other urgent humanitarian needs, through our 
ongoing programs and flexible funding mechanisms. However, resolving 
these issues and conflicts in the long term requires recognition that 
this will be a lengthy process requiring sustained engagement involving 
political will from the Government of South Sudan, commitment from the 
international community, and donor support. Without a pledge from the 
Government of South Sudan to address security, corruption, and 
governance issues facing South Sudan, donor interventions will not be 
sufficient to achieve stability.
          south sudan's revenue shortfall and austerity budget
    The Government of South Sudan's decision in January to halt oil 
production--the source of 98 percent of government revenues--has 
triggered the implementation of an austerity budget that falls short of 
addressing the overwhelming cut in revenues. It is not clear that the 
potential impact of this decision on citizen services and other 
government functions, livelihoods, food security, and the new nation's 
currency has been sufficiently recognized and communicated to the 
public. However, in the absence of alternative sources of funding or 
resumption of oil production, it is very clear that it will soon be 
impossible for the Government to pay for its current operations--
including salaries for public employees, the military, and police; 
longer term capital investment; and block grants to South Sudan's 10 
states.
    Under this austerity scenario, the Government of South Sudan must 
prioritize where its limited government revenues will be allocated, 
while donors, including the U.S. Government, assess how it will impact 
development programs over the short and longer term horizons. Any 
progress expected from a productive partnership for development will 
become much more difficult if the Government of South Sudan and the 
United States and larger donor community are forced to shift back into 
crisis mode. A greater emphasis on basic service delivery would come at 
the cost of the longer term institution building that the U.S. 
Government and others has supported in South Sudan since the signing of 
the Comprehensive Peace Agreement. We are extremely concerned that this 
enormous fiscal gap and potential shift in donor resources to cover the 
humanitarian challenges resulting from it, could result in backsliding 
on the institutional and state-building progress we have made over the 
past 6 years, exacerbating this new democracy's fragility.
                               conclusion
    Coming so soon after the hope engendered by peaceful celebration of 
South Sudan's independence, this confluence of crises is alarming. But 
we must remember that the remnants of a half century of conflict can 
continue to reverberate, even after a sturdy peace agreement has been 
established. The international community must act to ensure that these 
discrete conflicts do not spiral into a greater confrontation and that 
we do what we can to support the needs of the people affected by 
crisis. With so much invested in the future of these two nations, the 
United States, standing with many of our international partners, must 
speak out when actions either do not support or outright threaten the 
vision of peaceful coexistence and the economic opportunity that so 
many have sacrificed to bring this far.

    The Chairman. Thank you very much, Madam Administrator.
    Let me begin, if I may, by asking, Ambassador, first of 
all, do you have a date or do you know when this visit of 
Bashir to Juba will take place?
    Ambassador Lyman. We are hoping it will take place within 2 
weeks, that they would go back, that Juba would issue an 
invitation to President Bashir. They do want to make sure--do a 
lot of preparation so the summit produces concrete results, not 
just general. So, they will have to do a lot of--Thabo Mbeki 
and Pierre Buyoya will also do shuttle diplomacy during these 2 
weeks to help the preparations for the summit. But we are 
hoping it will take place in about 2 weeks.
    The Chairman. And do you have, at this point--I know the 
news only came out yesterday. But do you know what the agenda 
will be, the specific topics and breadth of this discussion?
    Ambassador Lyman. The idea is to ratify two agreements that 
were signed in Addis, and one I was very particularly happy to 
see signed, and that is on the nationality question; that is, 
the protection of southerners living in the north, and 
northerners living in the south, that they do not become 
stateless. And procedures were set up and agreed to. And then 
they signed an agreement on borders, how to deal with that 
problem. Those will be ratified by the two Presidents.
    But more important, they will give directions to their 
negotiators to tackle the oil and other questions in a 
different way, to recognize the needs of both sides, and to 
reach an agreement in that context. How specific those 
instructions will be is exactly what has to be worked on, but 
it will deal with oil, but also how to deal with issues like 
borders and Abyei.
    The Chairman. And given that it is really a north-south 
discussion. Obviously resolving the oil thing would be an 
enormous step--a huge step forward.
    Will the Blue Nile/South Kordofan access issue be on that 
table, or is that going to be a separate track?
    Ambassador Lyman. Well, it will be on the table in two 
ways. One, because you cannot get to the atmosphere they are 
talking about if we do not make progress in Southern Kordofan 
and Blue Nile. It is simply poisoning the situation. In 
addition to the terrible thing in itself, it is poisoning the 
relationship. It is forcing them to clash on the borders 
because both have a security concern in those areas. So, we 
have to make progress before the summit to create the 
atmosphere.
    But then the two have to say, look, we are both working to 
destabilize each other. How do we get out of that box? And 
Southern Kordofan and Blue Nile is part of it. If the 
Government has opened up the area to international access, what 
we are hoping is that will lead not only to a quieting of the 
hostilities, but hopefully the atmosphere that political talks 
can start. That will change the atmosphere.
    The Chairman. So, what more could the international 
community conceivably do to help convince the Sudanese 
Government that preventing a full-blown catastrophe in Blue 
Nile and South Kordofan more than it already has been, but 
moving to this next starvation and nutrition crisis, that it is 
in their interest to do that? I mean, is there a strategy 
underway? Do you have a thought about what more could be 
implemented?
    Ambassador Lyman. You know, it has been a tremendous effort 
on everybody's part to do just that because the Government was 
so angry and bitter over this with their own perceptions of how 
the war started and what it was about. It was very hard to get 
through on those matters. So, we have urged the Africa Union, 
Jean Ping, the chairman of the Africa Union Commission, China, 
Arab countries, South Africa, other countries, Arab League, 
Africa Union, everybody we could talk to, to send that message 
to Khartoum.
    The Chairman. Who do you think could have the greatest 
impact?
    The Lyman. Well, I think the Arab countries are 
particularly important. I am very delighted the League of Arab 
States is joining in this effort on humanitarian. China has 
become more active. I was in Beijing last August when Vice 
President Chi was here. Our two governments agreed we would 
work more closely on Sudan. Their new envoy is now traveling in 
Khartoum and Juba, and we have arranged to talk right after his 
trip on how we can coordinate better our efforts. I think those 
countries are important because they are important to both 
sides, but they have particular importance to Sudan.
    But I think another factor, quite frankly, Mr. Chairman, is 
the realization, the growing realization, I think, in Khartoum 
that there is not a military solution to this problem, and that 
simply going on with the fighting and facing the opprobrium of 
a humanitarian disaster is not in their interest. And I think 
all these efforts have contributed to that, and I am hoping 
that we will get better news in the days ahead.
    The Chairman. Just one other quick question and my time is 
up. But when we chatted a number of months ago, and I 
subsequently chatted with President Kiir about the oil shutdown 
issue, one of the concerns which you raised, and others did, 
was this question of what the cost of restarting up would be 
and what the damage might be in the process. Have we been able 
to assess that? Have you assessed that, and can you share with 
us what our knowledge is about how difficult it might be to 
bring that oil production back online?
    The Lyman. The feeling now is that if you started 
production tomorrow, by the time you got the pumps going, by 
the time you sent the oil up through the pipeline, made the 
contracts, sent the oil, it would be 4 months before the first 
dollar would come in. And that is worrisome because both sides 
are facing deep economic problems. But that is the latest 
estimate.
    The Chairman. Well, probably we may follow up on that. We 
will see.
    Senator Lugar.
    Senator Lugar. Ambassador, I just want to get some sense 
from you as an experienced diplomat on these matters, as it has 
been apparent in Khartoum for a long time that they would face, 
as you said, the opprobrium of the rest of the world with 
regard to starvation and the privation that is occurring in the 
south.
    But what would have to occur for the Government to actually 
change its behavior? Efforts to this end have been based, for a 
long time, on the statistics we have heard today of tens of 
thousands, hundreds of thousands of people dying in the 
process. And yet they have not been adequate to bring about 
much of a change, although you give us hope today once again 
some negotiations may occur, in part because the oil revenues 
of Khartoum itself, quite apart from those of the south, are at 
stake. And as has been suggested, a very large majority of 
funds for both governments really come from this oil, which is 
now stymied, as you say, at best for 4 months.
    When we talk about international pressures, what are the 
pressures that make any difference here? And how can we 
anticipate any difference in the future as opposed to hearings 
we may have next year at this time or the year thereafter and 
so forth, detailing once again how many people have suffered 
and starved?
    Ambassador Lyman. Well, there is both the immediate 
situation and the fundamental situation. The arguments and, I 
think, the resistance that has come out of Khartoum has been 
that they see the situation and the calls for international 
assistance as a plot to get inside Sudan and eventually take 
these areas south, and they see a repeat of the CPA; that the 
international community will come in, then they will set up 
camps, then they will send in the peacekeeping operation, and 
pretty soon the Government will lose control of more of its 
territory. I have heard that argument on many occasions.
    So, there is a deep suspicion of the motives of the 
international community, and they see this as we are not going 
to go down that path again. We are going to keep our country 
together, even if we have to do it militarily.
    So, it has taken a lot of time and effort to say, look, you 
are looking at it the wrong way, and you are looking at it in a 
way that is going to hurt your own interests very greatly. And 
to deal with this deep suspicion about motive, to have the 
Africa Union and the League of Arab States joining with the 
U.N. helps a great deal. So, that is part of it.
    Part of it, too, is this fundamental question of how they 
are going to govern the country. How do they treat areas around 
the periphery, if you can call it that, different ethnic 
groups, et cetera? And they have not got there yet. They have 
not determined how to do that in a democratic open way. So, 
they see a challenge, they respond militarily. And we have had 
to work against that mindset frankly for a long time and with a 
great deal of effort.
    Senator Lugar. Well, our dilemma clearly is that we are 
attempting to be of assistance in a lot of places. For example, 
a big debate rages about our policy toward Egypt, which, after 
all, has overthrown a dictatorship and is supposedly 
transitioning into a democracy. And suddenly, just to pick up 
Ambassador Lyman's thoughts, there is a great deal of rhetoric 
arguing that we are interfering with the Government of Egypt, 
the evolution of Egypt. So, despite the fact that the United 
States has committed $1.5 billion in assistance to Egypt, which 
is huge with regard to their current situation, we have this 
debate over the efforts of Americans to be of assistance to the 
Egyptians during this monumental transition.
    I raise this not because we can solve it here today, but it 
is so fundamental to what we are talking about in Sudan because 
Americans do have a humanitarian impulse to help.
    But again and again, I fear we are being stymied despite 
encouraging cases of cooperation from other countries that tell 
other, you know, the Americans are OK. Really you ought to let 
them help you. Yet the situation is so dire that starvation is 
actually being encouraged by Khartoum as another form of 
warfare.
    But this is really fundamental foreign policy problem we 
are going to have to face, because despite our very best 
attempts, we are now being rebuffed by those who say that our 
actions amount to gross interference in their affairs. And they 
say that if they are going to starve, they are going to starve 
by themselves or starve each other.
    Having made that pronouncement, I appreciate so much, 
Ambassador Lyman and Ms. Lindborg, your work really on the 
ground because you have to try to work through these challenges 
I have mentioned, and we admire what you are doing and your 
testimony.
    The Chairman. Senator Cardin.
    Senator Cardin. Well, thank you, Mr. Chairman. I, too, join 
in thanking our two witnesses for everything you are doing to 
make a difference in the lives of people who are being 
victimized.
    I also want to thank those on the second panel, George 
Clooney, John Prendergast, and Jonathan Temin, for bringing the 
spotlight on this issue that otherwise it is difficult. There 
are so many issues in the world, and you are really helping us 
focus on this humanitarian disaster.
    You set this up with the three fronts in Sudan, which adds 
to the complication. We are dealing not only with a few areas; 
we are dealing with the Sudan and South Sudan issues, and we 
are dealing with Darfur.
    As I listen to the testimony as to what is happening in the 
Two Areas, it reminds me of testimony 8 years ago on what was 
happening in Darfur. And Darfur happened under our watch, which 
was a failure of the civilized world to take appropriate action 
and the disaster against innocent people.
    Are we going to go through the same thing in the Two Areas, 
basically talk about this for years and see thousands or 
hundreds of thousands of people's lives ruined forever?
    So, it is very frustrating, I know, for all of us. But is 
there a lesson that we learn from Darfur that we can use to 
prevent that happening in the Two Areas? What mistakes did we 
make in Darfur that we do not want to repeat again? Can you 
just help us on this?
    I just do not--there is an urgency, and I understand 
getting humanitarian aid in there, that is great, and we are 
going to talk about it. But we talk about it and talk about it 
and talk about it, while people are dying.
    Ambassador Lyman. Well, Senator, you have really put your 
finger on a very fundamental question of what do we learn from 
these situations, and how do we prevent them from repeating 
themselves?
    I think that the echoes of Darfur and Southern Kordofan and 
Blue Nile are extremely, extremely upsetting and worrisome. 
There is a pattern in the way the Government of Sudan fights 
its wars that produces that kind of human rights violations, 
and I have discussed that with them on many occasions.
    The Chairman. Mr. Ambassador, could I ask you, could you 
pull the mic a little closer to you, pull it down.
    Ambassador Lyman. Sorry, Yes. I think that there is an 
opportunity to bring this war in Southern Kordofan and Blue 
Nile to a close. I think it is there. I think it is because in 
part they cannot win a military victory. They do not want and 
nobody wants huge camps of people who have moved from their 
homes. But the Government sees this as threatening their whole 
internal security, and it has taken long time to get them to 
see it differently.
    I cannot promise you that we are going to get out of this 
war soon, but I think what we did learn from Darfur is that 
organizing and mobilizing the international community early on 
is getting concerted and united pressure.
    Up until quite recently, the United Nations Security 
Council was not united on Sudan. The statement that was made 
just recently was a very strong united statement of all 15 
members. It makes a difference. Having the League of Arab 
States weigh in as well as the African Union makes a 
difference.
    So, I think/hope that we have learned some lessons are 
going to make some progress on this. But I share your 
frustration.
    Senator Cardin. I would just point out that until we change 
the way the Sudanese Government conducts its security issues, 
there is little hope that we will not see a repeat of these 
disasters. The failure to bring the Government to account for 
their violations of international law, we are paying a heavy 
price for that. Every time we take a pass on enforcing crimes 
against humanity, it makes it likely we will see a repeat of 
this in the future.
    One last question. You mentioned the impact as it related 
to Sudan and South Sudan, the impact in the Two Areas. Does the 
conflict in the Two Areas also have an impact on what is 
happening in Darfur?
    Ambassador Lyman. It does in this way. The SPLM-North, 
which is fighting the Government in Southern Kordofan and Blue 
Nile has teamed up with three of the Darfur rebel groups to 
form this Sudan Revolutionary Front, so that it has become a 
wider coalition of antigovernment forces, and they are 
cooperating more.
    And what is happening with the groups in Darfur are 
focusing more on national issues and, from their point of view, 
a regime change than specifically on Darfur.
    So, it is having an effect on the Darfur situation and 
linking the two in the way I have described.
    Senator Cardin. Well, I join with the chairman in thanking 
both of you for your commitment on this.
    Ambassador Lyman. I would just like to say thank you, and I 
appreciate, as Nancy does, the personal thanks. But I have to 
tell you that neither of us could do this job without the 
extraordinary focus of President Obama and Secretary Clinton on 
Sudan and South Sudan. They follow it very closely and are 
heavily engaged, and that makes all the difference. Thank you.
    Senator Cardin. There has been strong U.S. leadership in 
this region for a long time, but still the humanitarian 
disasters continue under our watch.
    The Chairman. Thank you, Senator Cardin.
    Senator Corker.
    Senator Corker. Mr. Chairman, I think the witnesses' 
testimony has been outstanding, and I really think the first 
three Senators have framed this very well, expressed 
exasperation and concern that all of us have.
    I have limited abilities, but one of my strengths is math. 
And I can see that if we continue this, our second panel, who I 
understand have been through a pretty hairy experience in 
getting here, are going to have a very disruptive session when 
votes begin. So, I am going to pass on questions so that we can 
proceed and hopefully get the testimony of the second panel 
before this hearing is disrupted. And I thank you for calling 
it.
    The Chairman. Well, thank you very much, Senator, for that 
generous offer, and we will see where we wind up here. But, 
Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. I will try to be 
brief, but I am not going to pass because I do not always have 
the opportunity to have some of our experts here before this 
committee.
    I want to follow up where Senator Cardin left off. We say 
never again, yet live time and time again through experiences 
in which ``never again'' actually manifests itself.
    So, I am wondering, what is it that we can do that we are 
not doing to create the pressure so that, in fact, some of the 
atrocities that are taking place can stop?
    Sudan continues to turn to other countries--China, Russia, 
Qatar--for assistance when they look at their Sudanese pound 
depreciating more than 50 percent since mid-2011, that is an 
opportunity, an economic opportunity, in which we can use that 
necessity to try to change behavior. And I just do not get the 
sense we are doing that.
    So, what is it that we are not doing that we could do, 
particularly with our allies, to change the course of events 
that Senator Cardin talked about?
    Ambassador Lyman. I think the opportunity is coming up as a 
result of this agreement that was reached in Addis, because 
what it focused on more specifically was the recognition on the 
part of their negotiators from Khartoum that they face a very 
major economic problem.
    And the only way out of that is not just an oil agreement 
with the south because the south can only provide so much out 
of that. And, therefore, what matters is the kind of assistance 
they will get from their friends in the Arab world, China, et 
cetera.
    And what now we can do, and I think it is important that we 
do, is work with those countries on the kind of support they 
offer to Khartoum; that is, to encourage Khartoum exactly in 
the way you say, that they have to deal with Southern Kordofan 
and Blue Nile. You cannot have a big investment and donor 
program in the middle of that.
    But also to give them encouragement that if they do do the 
right things and do make the right kind of agreements that the 
support would be there for them to deal with their major 
economic problems.
    That is what I think we have to work on a great deal more. 
A colleague of mine is going to be visiting the Middle East 
later this month to talk with the countries in that area. As I 
said, I have been in close touch with the Chinese Government on 
this. And I think we can do more to bring that part of the 
international community together, because Sudan does face this 
very serious economic crisis, and there is only one way out of 
it.
    Senator Menendez. And do you believe that they have the 
interest, since they have been offering financial assistance, 
to leverage that assistance to get the result that we want, 
which is resolution to the dispute?
    Ambassador Lyman. You know, they have some interest. Some 
of the countries have stopped giving Sudan considerable 
assistance. So, we have to gauge exactly how they perceive this 
situation, and I think that is one of the tasks we have to 
engage in the next few weeks.
    Senator Menendez. Finally, Ms. Lindborg, let me ask you, in 
the second panel Mr. Clooney and Mr. Prendergast are going to 
speak about their Satellite Sentinel Project, which uncovers 
threats to civilians using satellite imagery in order to 
generate a rapid response. Does the State Department view this 
as a model that can be used for monitoring conflicts in other 
parts of the world? We have a list of several locations, Syria 
to mention one.
    Ms. Lindborg. Yes, thank you. You know, there is a lot of 
focus in looking at how we can better predict and understand 
the possibility of coming atrocities, and there is an 
initiative that President Obama has put forth that has a focus 
on identifying a whole array of ways in which we can gather 
information that helps us prevent humanitarian crisis, so we 
are very interested in this as one of the models.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    Senator Isakson.
    Senator Isakson. Well, I am not about to not follow the 
leadership of Bob Corker because I am well aware that long line 
that began forming at 8 o'clock was not to see Johnny Isakson. 
It was to see George Clooney.
    [Laughter.]
    But I would like to say this. Princeton Lyman and Nancy 
Lindborg have done a phenomenal job. Bob Corker and I traveled 
to Darfur and Sudan and have been engaged. But I also want to 
acknowledge Special Envoy Williamson and General Grayson, their 
work, great work they did leading up to the Comprehensive Peace 
Agreement.
    And with that, I will defer to Mr. Clooney.
    The Chairman. Thank you, Senator. Senator--you fell short. 
I heard people out there saying, you seen Johnny Isakson?
    Senator Isakson. No. No.
    [Laughter.]
    The Chairman. Senator Udall.
    Senator Udall. I think I am going to follow the lead also 
of our Republican colleagues here and try to move as quickly as 
possible as we can.
    Let me just thank the Ambassador and Ms. Lindborg for your 
testimony and your leadership on this issue. And you have 
mentioned that President Obama and Secretary Clinton have been 
actively involved. We also appreciate their assistance there.
    With that, I will yield back.
    The Chairman. Thank you, Senator.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman. We have 
bipartisan agreement. It is time to move on. Thank you very 
much for your service. Thank you.
    The Chairman. Wow. I think I am going to try to schedule 
this kind of thing around a really controversial vote here.
    [Laughter.]
    Senator Corker. Mr. Chairman, I would say, all of us, just 
for the audience, we have the ability to ask questions of these 
officials and get back, and so we will all take the opportunity 
to do that. And that is why moving on makes sense.
    The Chairman. Before we excuse you, I just want to ask, is 
there anything, Administrator Lindborg, that you feel you 
wanted to say that you have not had a chance to, or Ambassador 
Lyman?
    Ambassador Lyman. Just to thank the committee very much. I 
do not think the crowds were out there to see us either.
    [Laughter.]
    The Chairman. Well, we are going to continue to work with 
you as closely as we have. We will try to support you in every 
way we can to try to approach this.
    I do think that Saudi Arabia, Qatar, China, could 
particularly play an increased role here, and I hope that over 
the next days we can talk about how to perhaps leverage that a 
little bit, and see if we cannot move on this.
    I know everybody wants to move on, but I just have this one 
last quick question. Do you believe that the signals you are 
getting and this movement of yesterday, et cetera, is there any 
indication in there of a greater willingness to try to provide 
access of the humanitarian assistance and actually get to the 
political solution on the Blue Nile, South Kordofan?
    Ambassador Lyman. Actually Nancy and I were on the phone 
this morning with the Minister of Social Welfare asking that. 
She has said that they are meeting tomorrow on the tripartite 
proposal. I am hoping we are going to get an answer as soon as 
tomorrow on that front.
    Once we open that door, once you have food going in, it is 
going to have to affect the fighting that is going on, and you 
have to protect the humanitarian workers. And that, we hope, is 
going to create an atmosphere where political talks start to 
happen. And we are hoping that--it has not been agreed yet, but 
that is the direction we want it to go.
    The Chairman. And this is a tricky question, but an 
important one. Do you have evidence--are there indicators of 
the South's direct support for proxy efforts in that area?
    Ambassador Lyman. We have said to the Government of South 
Sudan that supporting those fighting in South Kordofan, it is 
very dangerous, and we can see the results already--the 
retaliation, the bombing across the border. And we have had 
very candid talks with them about it. And part of the reason 
that they are going through this summit is to discuss that 
frankly between the two governments. So, I am hoping that that 
will be on the agenda.
    The Chairman. Well, thank you very much. We are as 
appreciative as everybody has said. You have come back to take 
this on, and it is a tough task. And we are really happy to 
have your expertise, and your skill, and the commitment of both 
departments to this. We thank the Secretary and the President 
for their focus on it. Thank you.
    Let us try to move seamlessly if we can. I would ask George 
Clooney and Jon Prendergast and John Temin if they would come 
up so we do not interrupt here in the process.
    Evidently moving is a very interesting thing.
    [Laughter.]
    Let alone sitting.
    Folks, can we ask the members of the press if they would 
give us room here to proceed? Thank you very much.
    John, is there an order that you guys have? George. Go for 
it, thank you. Again, we are really happy to have you here. I 
know you traveled overnight to get here, and we look forward to 
both your testimony, as well as, I think, you have a video with 
you that you want to show. And we look forward to seeing that.

  STATEMENT OF GEORGE CLOONEY, COFOUNDER, SATELLITE SENTINEL 
                    PROJECT, WASHINGTON, DC

    Mr. Clooney. Thank you. Thank you, Senators. I thank you 
for the opportunity to appear before you. I understand how busy 
you are. I will try to brief and to the point.
    The first thing I would like to do is I want to set some 
boundaries and separate what is fact from what is fiction for 
us. We will start with some of the facts.
    The Government of Sudan, led by Omar al-Bashir, Ahmed 
Haroun, and Defense Minister Hussein, the same three men who 
orchestrated the atrocities in Darfur, have turned their bombs 
on the Nuban people. Now, these are not military targets. These 
are innocent men, women, and children, and that is a fact.
    Three days ago while we were in the Nuba Mountains, 15 
bombs were dropped on a neighboring village. When we got there, 
we found children filled with shrapnel, including a 9-year-old 
boy who had both of his hands blown off.
    As we traveled further north, we were greeted by hundreds 
of villagers carrying signs reading, ``Stop the Antonovs.'' And 
as we met with their leaders, we were also met with three 300-
millimeter rockets fired overhead. And we witnessed hundreds of 
people running to the hills to hide in caves for their safety, 
and that happens every day.
    These people are not the cave people of Nuba. They actually 
live on farms, and they are the oldest society in the world, 
and yet now they are forced to hide in caves. It is a campaign 
of murder and fear and displacement and starvation, and that is 
also a fact.
    Religion is not an issue. In the camps you will find 
Christians and Muslims hiding together. It is ethnic in nature.
    The indiscriminate bombing of innocent civilians is defined 
as a war crime in the Geneva Convention. In January of last 
year, I was in South Sudan with Senator Kerry for the 
referendum that gave us the world's newest nation, South Sudan. 
Amid all the excitement of self-determination, we warned the 
world of the danger of leaving the four border regions out of 
the referendum talks--Darfur, South Kordofan, the Blue Nile, 
and, of course, Abyei. The Government of Khartoum accused us of 
rhetoric designed to incite and anger the north or against the 
north.
    We visited Abyei in January, in January of 2011, and at the 
time it was estimated to have 120,000 Ngok Dinka inhabitants. 
Today there are none. They are either dead or they are refugees 
all because they had the bad luck of being born on a border, 
being born in oil rich land, or being born black. That is a 
fact.
    These three men, Bashir, Haroun, and Hussein, are all 
charged with war crimes for their actions in Darfur, and now 
they are proving themselves to be the greatest war criminals of 
this century by far. So, the obvious question is, Why should we 
care? What does this have to do with us? We have our own 
problems. We have jobs. We have housing. We have debt, and now 
we see our gas prices going up. As Senator Lugar said and as 
President Obama said in the press conference last week, he 
talked about three reasons why we are paying more at the pumps: 
speculators, uncertainty in Iran, and South Sudan shutting off 
its oil.
    As you know, the south has all the oil and the north has 
the pipelines and the refineries. And for years the north has 
been taking the oil, keeping most of the profits, buying bombs 
and rockets, and using them on Darfur, the Blue Nile, Abyei, 
and the Nuba Mountains.
    So, 6 weeks ago the south shut down their oil production. 
They just stopped. And overnight China lost 6 percent of its 
overall oil imports, which means they have to go elsewhere, and 
that raises the price of oil. What happens in Sudan matters 
very much to us now economically. That is also a fact.
    But what can we do? We are not going to use our military. 
We are not likely to see a NATO no-fly zone. That is probably 
not going to happen. So, this is all where we all come in. We 
need to do what we are best at, real diplomacy, starting with 
China.
    China has a $20 billion investment in the oil 
infrastructure in the Sudan, and right now they are getting 
nothing for it. We need to use this opportunity to work in 
tandem with the Chinese to solve these cross-border issues, not 
by using guilt, not by appealing to humanitarian interests, but 
simply from good, solid economic reasons for both of us. Let us 
send a high-level envoy to China to work together on this. Let 
us use the techniques we have learned from chasing terrorists 
and find and freeze the offshore bank accounts of these war 
criminals. They are not buying these weapons in Sudanese towns. 
Let us work with the international community to toughen the 
sanctions, make Khartoum a very lonely place. There is a 
lobbyist here in D.C. who is allegedly paid $20,000 a month to 
lobby for Khartoum. Let us make sure he is paid in Sudanese 
towns from here on in.
    There is a bill in the House, the Sudan Peace Security and 
Accountability Act of 2012, that addresses many of these 
subjects, and we hope that the Senate will introduce an equally 
robust bill.
    There is a long list of things we can do that will not cost 
lives or much money. There are no two sides to these core 
issues. We cannot give the lives back. We cannot replace that 
young boy's hands. But we can put an end to it if we work 
together as a nation and as an international community, and it 
can start here.
    I know this. If we work together, all of us, we cannot 
fail. And that last part is just opinion.
    I thank you, and I forfeit the remainder of my time to 
Senator Kerry.
    The Chairman. There is a trend here. Exactly. John, are you 
going to----
    Mr. Prendergast. For better or worse, I am with him, so we 
are good. I am just here for the Q&A.
    The Chairman. Great. Jonathan Temin.

  STATEMENT OF JONATHAN TEMIN, DIRECTOR, SUDAN PROGRAM, U.S. 
               INSTITUTE OF PEACE, WASHINGTON, DC

    Mr. Temin. Chairman Kerry, Ranking Member Lugar, and 
members of the committee, it is an honor to appear before you 
today to present my views.
    Let me also express my condolences to the family and 
colleagues of Congressman Donald Payne, who was a great 
champion for the people of Sudan and South Sudan.
    I direct the Sudan Program at the U.S. Institute of Peace, 
which has been working on the ground in Sudan for 18 years. The 
views I express today are my own and not necessarily those of 
the U.S. Institute of Peace, which does not take policy 
positions.
    Mr. Chairman, I intend to focus my remarks today on two 
broad issues that I believe are critical to the future of these 
two countries; governance and economic viability. Let me 
emphasize that the issues already addressed, especially 
immediate humanitarian access to South Kordofan and Blue Nile 
States, are vitally important and should be priorities for the 
international community.
    For decades, Sudan has lurched from one crisis to another. 
Also for decades, Sudan's leaders have employed a model of 
governance that is ultimately unsustainable. This is not a 
coincidence. Rather, this model of governance is a central 
cause of Sudan's continuous instability. It concentrates 
wealth, power, and resources at the center of the country, to 
the detriment of populous peripheral areas. It is exclusionary 
and riddled with corruption.
    Under the current government, this model has been 
accompanied by an effort to impose an Arab, Islamic identity 
throughout Sudan. The result has been a series of rebellions 
from peripheral areas seeking more equitable sharing of 
resources and resisting the imposition of identity or religion. 
The Government has often responded to these rebellions with 
brutal and disproportionate force.
    The international community has spent decades working to 
end these conflicts on Sudan's periphery, with some success. 
But the international community continues to chase these 
conflicts around the periphery while rarely making concerted 
efforts to help Sudanese reform the flawed governance model at 
the center. It is time for that approach to change. It is time 
for a more comprehensive strategy for addressing Sudan's 
challenges rather than the piecemeal approach too often 
adopted.
    This will not be easy. The Government of Sudan has shown 
little appetite for self-reflection or reform. But given the 
dire economic situation, mounting internal resistance, and 
climate of change throughout the Arab world, they may have 
little choice.
    One opportunity for reform lies in the process of 
developing a new constitution. That process is a natural venue 
for dialogue about the nature of the Sudanese State and how it 
should be governed. But the process must be inclusive, 
participatory, transparent, and consensus-based.
    The international community should draw attention to the 
importance of that process and work to convince the wide array 
of Sudanese political entities of its value. USIP has been 
working to help Sudanese civil society organizations promote a 
genuine constitutional development process.
    Concerning South Sudan, it should be noted that the South 
Sudanese leadership did an impressive job navigating their 
country to independence. But since independence, there has been 
growing concern about the Government of South Sudan's 
commitment to good governance and tackling corruption, and 
their ability to stabilize the fledgling nation.
    The United States has an important role to play in helping 
to arrest and reverse these trends before they are fully 
ingrained. The United States has been a friend of South Sudan 
for years, and that should continue. But it is now time for 
South Sudan to be held to the same basic standards of 
governance and transparency as any other independent nation. 
While recognizing the limited capacity of the Government of 
South Sudan, the United States should be clear in articulating 
these standards, and candid with South Sudan when those 
standards are not met.
    Turning to economic issues, as the shutdown in South 
Sudanese oil production continues, the economies of both 
countries are under considerable strain. In Sudan, a key 
question concerns whether Sudan will receive economic 
assistance from friendly nations. This will be the sovereign 
decision of other countries, but the United States should 
encourage that any assistance provided be closely linked to 
progress on key priorities, such as the type of fundamental 
governance reform described earlier, and implementation of the 
Doha Document for Peace in Darfur.
    In South Sudan, the decision to suspend oil production has 
been well received by the South Sudanese population so far. But 
one wonders how it will be viewed in 6 months or a year if 
there are substantial budget cuts that reduce already minimal 
service delivery.
    Talk of building a new oil pipeline through East Africa in 
18 months is exceedingly optimistic. The Government of South 
Sudan should be straightforward and candid with the population 
about the implications of a continued shutdown in oil 
production.
    The silver lining is that the difficult economic 
circumstances in both countries create leverage for the 
international community. Both countries desperately need 
outside assistance. International coordination of any economic 
assistance will be crucial, so that it is clear, for both 
countries that assistance provided is contingent on certain 
steps each government must take.
    I want to again express my appreciation for the opportunity 
to address this committee. I look forward to answering any 
questions you may have.
    [The prepared statement of Mr. Temin follows:]

                    Prepared Statement of Jon Temin

    Chairman Kerry, Ranking Member Lugar, and members of the committee, 
it is an honor to appear before you today to present my views on Sudan 
and South Sudan. Thank you for this opportunity.
    Let me also express my condolences to the family and colleagues of 
Congressman Donald Payne, who was a great champion for the people of 
Sudan and South Sudan.
    The views I express today are my own and not necessarily those of 
the U.S. Institute of Peace (USIP), which does not take policy 
positions.
    I currently direct USIP's programs on Sudan and South Sudan. My 
views are informed by my work at USIP, which conducts training and 
field operations and provides tools to help prevent, manage, and end 
violent international conflicts. USIP has been working on the ground in 
Sudan (and now South Sudan) for over a decade, in the capital cities 
and in remote, conflict prone areas, trying to build capacity to 
prevent and manage conflict. We also work to increase understanding of 
critical issues affecting Sudan and South Sudan and to identify 
innovative solutions. I travel frequently to Sudan and South Sudan and 
have a broad network of contacts across both countries.
    Mr. Chairman, I intend to focus my remarks today on two broad 
issues that I believe are critical to the future of these two 
countries: governance and economic viability. Let me emphasize that the 
issues addressed by the other panelists, especially immediate 
humanitarian access to Southern Kordofan and Blue Nile states, are 
vitally important and should be priorities for the international 
community. But I want to take this opportunity to address several 
bigger picture issues that are sometimes set aside due to the urgency 
of addressing more pressing demands. I will conclude with brief 
comments on current relations between the Republic of Sudan and the 
Republic of South Sudan.
                      governance in the two sudans
    For decades, Sudan (and with it the international community) has 
lurched from one crisis to another, from the two north-south civil wars 
to the violence in Darfur to the recent fighting in Abyei to the 
current conflict in Southern Kordofan and Blue Nile states. Also for 
decades, Sudan's leaders have employed a model of governance that is 
ultimately unsustainable. This is not a coincidence. Rather, the model 
of governance employed by the current Government of Sudan--and several 
governments before it--is a central cause of Sudan's continuous 
instability. This model concentrates wealth, power, and resources at 
the center of the country, meaning in and around Khartoum, to the 
detriment of populous peripheral areas. It is exclusionary and riddled 
with corruption. Since the beginning of Sudan's oil production, 
Khartoum has been a boomtown, while the peripheral areas have remained 
generally poor and underdeveloped. The rich and some of the middle 
class prosper, while many more suffer. Under the current government, 
this model has been accompanied by an effort to impose an Arab, Islamic 
identity throughout Sudan. The result has been a series of rebellions 
from peripheral areas seeking more equitable sharing of resources and 
resisting the imposition of identity or religion. The Government has 
often responded to these rebellions with brutal and disproportionate 
military force.
    The Government has learned that it benefits from promoting 
instability and division in peripheral areas, as it weakens the ability 
of opposition forces based in the periphery to challenge the center.
    The international community has spent decades working to end these 
conflicts on Sudan's periphery, with some success, such as the 
Comprehensive Peace Agreement (CPA). But the international community 
continues to chase these conflicts around the periphery while rarely 
making concerted efforts to help Sudanese reform the flawed governance 
model that is a root cause of instability. It is time for that approach 
to change. It is time for a more comprehensive strategy for addressing 
Sudan's challenges, rather than the piecemeal approach too often 
adopted.
    This will not be easy. Since the secession of South Sudan in July 
2011, the Government of Sudan has shown little appetite for self-
reflection or reform, and the more they feel backed into a corner the 
less likely they are to engage in any meaningful reform. But given the 
dire economic situation, mounting internal resistance and climate of 
change throughout the Arab world, they may ultimately have little 
choice. It is important to keep in mind that Sudan's leaders value 
self-preservation above all else.
    One opportunity for reform lies in the process of developing a new 
constitution. With the conclusion of the CPA and secession of South 
Sudan, Sudan is required to develop a new permanent constitution. That 
process is a natural venue for dialogue about the nature of the 
Sudanese state and how it should be governed. But the process must be 
genuine, meaning it must be inclusive, participatory, transparent, and 
consensus-based. USIP has been working with Sudanese civil society 
organizations to help them promote these principles.
    Recent events and statements suggest that genuine constitutional 
reform is a tall order. But sooner or later, the people of Sudan must 
have a dialogue among themselves about the nature of the Sudanese state 
and how it should be governed. The role of the international community 
is to help them enter into that dialogue. The international community 
should draw attention to the importance of that dialogue and work to 
convince the wide array of political entities in Sudan of its value.
    A second area of international focus should be the next elections 
in Sudan, scheduled for 2015. The substantial flaws of the 2010 
elections were largely overlooked because they were viewed as little 
more than a box to be checked before the referendum. In hindsight, 
those elections were a missed opportunity to promote democratization. 
President Bashir has repeatedly promised that he will not run in the 
next election, which may create space for a more open contest. If the 
2015 elections are to be better than previous elections, technical and 
political preparations cannot begin soon enough.
    Turning to governance in South Sudan, it should be noted that the 
South Sudanese leadership did an impressive job navigating their 
country to independence. The peaceful and orderly referendum and 
secession process was an important success for South Sudan and the 
world. But since independence, there has been growing concern about the 
Government of South Sudan's commitment to good governance and their 
ability to stabilize the fledgling nation.
    There are worrying reports of large-scale corruption in South Sudan 
and little progress in prosecuting offenders so far. Journalists have 
been harassed and detained on multiple occasions, defying explanations 
that they are isolated incidents. There is widespread indiscipline and 
sometimes little cohesion within the Sudan People's Liberation Army 
(SPLA), hindering its efforts to respond to large-scale violence, as 
witnessed recently in Jonglei state. There are major ethnic divides 
within government and society as a whole. The Government has so far 
failed to accelerate service delivery to a needy and expectant 
population following secession. All these challenges will be magnified 
by the revenue lost as a result of the shutdown in South Sudanese oil 
production--one of many reasons it is critical that an agreement 
between Sudan and South Sudan on oil sector management is reached soon.
    The United States has an important role to play in helping to 
arrest and reverse these trends before they are fully ingrained. The 
United States has been a friend of South Sudan for years, and that 
should continue. But it is now time for South Sudan to be held to the 
same basic standards of governance and transparency as any other 
independent nation--they should not receive special treatment based on 
past relations. While recognizing the limited capacity within the 
Government of South Sudan, the United States should be clear in 
articulating these standards and accompanying expectations. As with 
other nations, there should be consequences when these standards are 
not met.
    South Sudan also requires a new permanent constitution, and as in 
Sudan, the process for developing it will be a unique opportunity to 
convene a national dialogue about fundamental governance issues. It 
will be a test of the Government of South Sudan's commitment to good 
governance and genuine democracy. The recent appointment of a 
commission to lead the process is a positive step. The international 
community should provide South Sudan with the assistance it needs to 
ensure that the constitutional development process embraces the 
principles of inclusivity, participation, transparency and consensus.
    Also similar to Sudan, it is not too early to begin preparations 
for South Sudan's first elections as an independent country, scheduled 
for 2015. This will be another test and opportunity. There is much work 
to be done on both technical preparations and political party 
development. South Sudan's opposition parties are weak and require 
capacity-building assistance, which the Government of South Sudan 
should welcome.
    The single greatest challenge facing South Sudan is not one of 
governance or economics, however, but a challenge faced by many African 
countries: rising above tribal identities and embracing a national 
identity. For many years, two forces have loosely unified South 
Sudanese: the common enemy they perceived in the north and the shared 
goal of achieving independence. Those forces are now diminished, and 
left in their wake is the paramount question of what it means to be 
South Sudanese. The process of developing a shared national identity 
will be painstaking and require decades, but it should begin now. As 
witnessed in various parts of South Sudan, most recently and tragically 
in Jonglei state, tribal rivalries can take a brutal toll and escalate 
out of control. South Sudan's tribal identities are deeply engrained 
and not easily overcome, but they should at least be accompanied by a 
stronger sense of South Sudanese identity.
                  economic viability of the two sudans
    As the shutdown of South Sudanese oil productions continues and 
negotiations drag on, the economies of both countries are under 
considerable strain. The Government of Sudan is opaque in its economic 
management, but is clearly struggling. The lost revenue from South 
Sudanese oil cannot easily be replaced. There are efforts to increase 
domestic oil production and gold exploration, but that will take time 
and returns are uncertain. Meanwhile, the Government is due to make 
significant investments in Darfur as called for by the Doha Document 
for Peace in Darfur (DDPD). But at the same time it has been forced to 
implement some austerity measures, with the possibility of more in the 
future, and the massive debt burden remains.
    It has been said that it is the price of sugar that will ultimately 
bring Sudanese to the streets, and this may be true. Part of what has 
kept the current government in place for so long has been significant 
investment and development in the center (Khartoum) and extensive 
patronage networks. But without funds to continue growth in the center 
and maintain the patronage networks--as well as to pay generous 
military and security salaries--the Government may be increasingly 
vulnerable. This is part of the reason Sudanese negotiators are 
striking such a hard bargain in the ongoing negotiations with South 
Sudan.
    The two greatest economic uncertainties for Sudan are the outcome 
of those negotiations and whether Sudan will receive economic 
assistance from friendly nations (such as fellow Arab States or China). 
Some short-term economic assistance was received in recent months, but 
it will not last long. Whether longer term assistance is forthcoming 
will be critical. This is a question on which the United States should 
be very much engaged. It will be the sovereign decision of other 
countries whether they provide economic assistance to Sudan, but the 
United States should encourage that any assistance provided be closely 
linked to progress on key priorities, such as the type of fundamental 
governance reform described earlier and implementation of the DDPD. In 
particular, any economic assistance from Qatar linked to DDPD 
implementation should only go to its intended destination, as described 
in the agreement, in order to directly help Darfuris.
    In South Sudan the economic outlook may be just as bleak. More than 
90 percent of the Government of South Sudan's revenue comes from oil 
production, which is currently suspended. There is no way to make up 
much of that revenue in the short term. Furthermore, talk of building a 
new oil pipeline through Kenya or Ethiopia and Djibouti in 18 months is 
exceedingly optimistic. By most estimates it will take several years to 
construct a new pipeline, and critical financing issues remain 
unresolved.
    There is discussion of austerity budgets, but it is difficult to 
see how the accounting will work given promises not to cut SPLA 
salaries and to give raises to the police. The decision to suspend oil 
production has been well-received in South Sudan so far, but one 
wonders how it will be viewed in 6 months or a year if there are 
substantial budget cuts that reduce already minimal service delivery. 
The Government of South Sudan should be straightforward and candid with 
the South Sudanese population about the implications of a continued 
shutdown in oil production. Popular expectations following independence 
were already well beyond what could have been delivered; with the 
temporary loss of oil revenue, the gap between expectations and reality 
will be even larger.
    The silver lining is that the difficult economic circumstances in 
both countries create leverage for the international community. Both 
countries desperately need outside assistance. International 
coordination of any economic assistance will be crucial, so that it is 
clear, for both countries, that assistance provided is contingent on 
certain steps each government must take. Absent those steps, neither 
country should be bailed out.
                      sudan-south sudan relations
    Beyond the domestic challenges faced by Sudan and South Sudan, 
relations between the two countries are deeply troubled. Despite heated 
rhetoric in both directions and little progress in the ongoing 
negotiations, I do not believe either country wants a return to full-
scale war. It would be economically disastrous on both sides of the 
border. But the international community must be concerned that events 
may escalate beyond control and pull the two countries back to war. 
Each blames the other for instability that has much more to do with 
internal factors than external interference. There is little, if any, 
trust between Juba and Khartoum. These forces further complicate 
already complex negotiations on post-referendum arrangements, most 
notably management of the oil sector. But there must be progress in 
those negotiations in order to deescalate tensions, especially around 
the border. The African leadership provided by President Thabo Mbeki 
and the African Union High-level Implementation Panel (AUHIP) has been 
valuable, but it has to be backed up by, and coordinated with, 
multilateral engagement. We know such coordination is possible because 
it happened in the runup to the referendum, helping to make it a 
peaceful process despite predictions to the contrary. But we also know 
that the referendum and independence of South Sudan was not the end of 
instability in the two Sudans. In many ways, it marked the beginning of 
even greater challenges.
    I want to once again express my appreciation for the opportunity to 
address this committee. Thank you for holding this hearing today on 
such an important and timely topic. I look forward to answering any 
questions you may have.

    The Chairman. Thank you very much, Mr. Temin. That is very 
important testimony, particularly with regard to the equality 
of accountability, and I think it is something we are going to 
have to think about.
    George, if I could ask you, we talked earlier about your 
trip and what you observed. I know that you have brought a 
video, I think, from that, but could you describe--give us a 
sense of what you really saw on the ground, and what you see 
perhaps from that as the most critical, immediate first step 
emergency that we need to take.
    Mr. Clooney. Well, what we saw--in general what we saw was 
Nuban people who were incredibly vulnerable. The issues that 
Ambassador Lyman was talking about are the biggest one, which 
is there is a rainy season coming, and there is a great many 
people who could starve to death. This has been done 
intentionally. These people usually are farming and have 
planted by now. They are hiding in caves.
    What you see is a constant drip of sphere. Every single day 
those Antonovs fly overhead. Now, these are not particularly 
accurate bombs. These are big planes with bombs, and they open 
up the cargo door, and they just throw them out. If they were 
aiming for you, it would probably be the safest place you could 
be.
    But what it does is it creates this environment of fear. 
Every time you hear the sound of those engines, and it takes 
about 5 minutes for them to get there, and they circle. Every 
time you hear the sound, everyone runs and runs to the hills. 
It creates fear to keep them from doing anything really, their 
ability to do anything.
    And they are there without any protection. We went--one of 
the roads we went up recently was taken by the north, and then 
the SPLM fought their way through it. There were a lot of dead 
bodies on the side of the road. We were in one village where we 
heard the missile attack. They were standing there holding 
signs saying stop attacking us, stop with the Antonovs. Stop.
    These people every single day of their lives have to deal 
with fear, not just of the future in terms of starving to 
death, but actually actively being killed. And that is--that 
was what the majority of what we are here to do. You know, I am 
here to talk about the dangers of these people particularly, 
and the specifics are that the exact same people who did this 
in Darfur are the people that are doing this again. And these 
signs, as the Ambassador said, are ominously similar to what 
happened in Darfur. And that is the problem, and that brings us 
cause to pause.
    The Chairman. I gather you have a video. Are you going to 
show that? I beg your pardon?
    Mr. Prendergast. Time wise it is probably better to go 
ahead and ask questions.
    The Chairman. OK. Well, I think it is important. I heard 
your description, and I think that it would be helpful to the 
committee to--I mean, that is as firsthand as it gets. But it 
is your choice. How long is it?
    Mr. Prendergast. A few minutes.
    The Chairman. Let us do that.

    [Video Presentation.]

    The Chairman. Well, I am glad we did share that. I am glad 
you brought that, and I think it was an important part of the 
testimony. And so, I appreciate very, very much your bringing 
that before the committee. Those images are obviously powerful, 
important. And I think it underscores what has been said here 
today.
    If I could just ask you, and then we will go around here, 
you listed a number of things, George, that you thought were 
immediate steps. What, if any--what do you think is the most 
compelling, important, immediate step that either the United 
States or together with the international community can do that 
would have an impact?
    Mr. Clooney. Senator, there is a fairly popular feeling 
that this shutting off of oil by the south is damaging to both, 
and there are very good arguments for that. You could argue 
that if it was the United States and we were at war with Canada 
and sending them oil, and they were buying bombs with it, we 
would probably stop.
    But the truth of the matter is, what we really need to do 
is we can take this moment and engage with China, I think, for 
the first time. I have gone to China and tried the version, 
hey, you have got an Olympics coming, maybe it would not look 
so good if you are supporting the--you know, the attacks in 
Darfur. That does not really work. Guilting people often does 
not.
    There are economic reasons to do this for both of us, and 
it seems to me that we could use this opportunity, this window 
of opportunity before it gets too long, too late, by sending a 
high-level envoy. And I do believe we should absolutely focus 
on where their money is because they are spending a lot of it, 
and they are hiding a lot of it. Even if we cannot freeze it, 
the transparency itself. We have seen how that works in other 
countries during this Arab Spring. When you find out how much 
money they actually have taken from their own people and hid in 
banks, that tends to create insurgence inside.
    So, I think those are the two major steps that could be 
done. That is our belief. There are many others.
    The Chairman. Senator Lugar.
    Senator Lugar. George, I noted down as you gave your first 
testimony your ideas about sending an envoy to China so that we 
can address these issues together and using the banking 
sanctions to impact the wealth of high-level Sudanese 
officials. We are using similar measures with respect to Iran 
and for good reason. We have had some experience with this with 
North Korea. In those cases, it was because of nuclear devices. 
They either had them or they were developing them.
    But one could argue this is equally serious for different 
reasons, and our diplomacy with China is, as you suggested, 
unfortunately not just humanitarian, although humanitarian 
issues are an important component of that. Access to oil is 
extremely important for the Chinese, and they are prepared to 
fight for it eventually if they cannot get it. And so, we have 
somebody to talk to here, and I just wanted to endorse your 
idea as a hope that the administration might pick up on the 
testimony and some of the things we are discussing today.
    Likewise, Mr. Chairman, although it is, as you say, far-
fetched to think of an alternative pipeline in the shorter 
term, perhaps it is not a pipe dream to think about it as a 
longer term idea regard to South Sudan. This could be repeated 
even if we move through one crisis, and it seems to me that for 
the sake of our humanitarian effort it may be worth exploring 
which investors may be willing to be involved in such an 
alternative.
    So, I just wanted to pick up that suggestion as one that 
may be fundamental down the trail and strengthen the temporary 
or immediate measures that we have to take.
    So, I thank all three of you again for your testimony and 
for these very practical suggestions of policy that I think are 
very useful.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. I want to thank 
all of you for your insights. Where you are, Mr. Clooney, in 
terms of seeking a practical economic leverage for a worthy 
result is, is what I was trying to elicit from our previous 
panel.
    How is it that we influence the behavior of others who can 
influence Sudan? And in that respect, as someone who has led 
sanctions here on Iran, I actually believe that we can, in 
fact, use leverage in this case for a worthwhile humanitarian 
purpose.
    And when the Chinese have such an investment that is not 
being productive, it seems we must work with the Chinese to 
both get them to understand their economic interests, if 
nothing else, and at the same time look at that as the 
opportunity for how we ratchet down--you talked about the 
accounts. We do that quite often. I hope the President might 
even look at the possibility of an Executive order doing that 
versus waiting for us legislatively to respond. It might be 
possible under his abilities. We would have to look under the 
Treasury Department.
    But I would like to take some of your insights regarding 
how we create the leverage to change the on-the-ground reality. 
The Chinese have a multibillion dollar investment that is not 
being productive, which can be used to create economic 
consequences that will move people to a different course of 
action out of pure necessity when they do not do it for a 
higher calling, and I think those are the ways in which we are 
going to actually change the realities on the ground.
    So, as someone who has been a big advocate here on 
sanctions for different purposes, I think they can work, 
especially when we can multilateralize them. But often the 
United States has to lead in order to get the rest of the world 
to follow.
    So, I appreciate those insights, and I hope our friends in 
the State Department are listening, and that we can take it 
into action. I certainly will be looking forward to doing that. 
So, thanks.
    The Chairman. Thank you very much, Senator Menendez.
    I note that Ambassador Lyman and Administrator Lindborg are 
still here and indeed listening, and I know that they also talk 
to and work closely with John Prendergast and George Clooney, 
so that hopefully--I am confident we will follow up on this.
    Senator Corker.
    Senator Corker. I just want to thank you again for the 
attention that you bring to this issue, and certainly the 
reality that we have seen here through this production this 
morning. And those of us who travel to countries like this just 
cannot bring the attention to it that people like you can, so I 
thank you for that. I thank you for the suggestions that you 
made not only here, but in the back room. And hopefully we will 
follow up on those. But, again, thank you very much. It has 
been very moving.
    And to Mr. Prendergast, while you are here, since there has 
been some discussion about the Satellite Sentinel Project, I 
wonder if you might just take a minute or so to explain to the 
rest of us and to the others here exactly how that works and 
how that might be utilized in conflict areas like this.
    Mr. Prendergast. Thank you, Senator. It is a partnership 
between Digital Globe, which is a satellite imagery company, 
Harvard, and Enough Project to take--it was George's idea 
frankly that, you know, we wanted to try to drive attention to 
deterring war crimes before they happen rather than bemoaning 
the fact afterward, and to create a capacity to--and this is 
what has happened over the last year. You find, OK, we have 
soldiers mashing a particular area. We have air assets being 
moved into position, attack helicopters, Antonovs, and other 
things. I mean, those are targeting some of the signal 
intelligence where areas are being targeted, and we can raise 
the alarm bells that particular people are vulnerable, and we 
need to have action.
    And if there is not action taken and the attacks do happen, 
at least we have the visual evidence, empirical evidence, to go 
present to the International Criminal Court and the United 
Nations Security Council and others for hopeful prosecution in 
the future.
    Senator Corker. I know the first panel acknowledged that 
this was a useful tool. Are there ongoing discussions between 
you and the State Department and other agencies of our 
government to utilize this more fully?
    Mr. Prendergast. You know, it is very important for us to 
say just a footnote to George's testimony that the 
administration's policy and strategy is the right one. You 
know, we support very strongly Ambassador Lyman as a special 
envoy, and think he is doing an extraordinary job. And so, we 
are in touch all the time because we want to be supportive of 
the administration, by the way, which is a very bipartisan 
strategy, and it has been through the last three 
administrations on Sudan. And, of course, Congressman Payne was 
one of the sort of incubators of this bipartisan effort. So, we 
wanted to note him as well, and raise.
    But I think there are a few opportunities right now just to 
put a little fine point on what this moment does present with 
the cutoff of the oil. President Obama and President Hu are 
going to meet very soon. This will be a chance to put this 
issue high on the radar screen of the two leaders to talk about 
how specifically the United States and China can forget this 
kind of a partnership we are talking about.
    Ambassador Lyman and others are already having 
conversations, so, again, we are not telling somebody something 
they do not know. But I think having that high level, real 
strong endorsement of the need to deepen the partnership would 
be really helpful.
    And also, and you are going, Senator Kerry, very soon to 
Qatar to talk to the emir. I mean, a number of countries are 
bailing these guys out, you know. It is easier for them to 
continue to be intransigent if they are getting credits from--
or soft loans, which they will never pay back, from the Middle 
Eastern countries. So, for President Obama, for example, to 
make a call directly to the emir of Qatar and say, this is not 
the right time, hold it, and use it as leverage for a deal, a 
comprehensive deal that addresses all these problems.
    And then finally on the unilateral leverage that the United 
States has, we have plenty of sanctions, you know, as everyone 
knows, but we are not enforcing them. And so, giving the 
Treasury Department, specifically the Office of Foreign Assets 
Control, the capacity to enforce, having a couple of people on 
the staff full time chasing those assets, as George said. Even 
if we cannot freeze them or cannot get any other country to 
freeze them, by exposing them.
    What was the root of the explosion of popular sentiment 
during the Arab Spring in Middle East and North Africa? It was 
popular resentment against all this corruption. All these guys 
have been packing the old wealth in the private accounts under 
these companies--international companies that they are invested 
in. Let us go find that money and expose it if we cannot freeze 
it. It will put them in even deeper hot water with their own 
people who at the end of the day going to solve the problem.
    Senator Corker. Mr. Clooney, Mr. Prendergast, and Mr. 
Temin, thank you very much. Appreciate it.
    The Chairman. Thank you very much.
    Senator Cardin, I would just note that it is about 11:40, 
and three votes started, so we have about 15 minutes, something 
like that.
    Senator Cardin. I will limit myself to 2\1/2\ minutes. Let 
me just make this point.
    First, again, thank you all for what you are doing. And let 
me just underscore the point on sanctions. You are absolutely 
right, sanctions are important if they can be enforced 
internationally. The United States has to show the leadership, 
has to have tough sanctions, and have to not only enforce those 
sanctions, but use it as a high priority on their diplomacy 
with other countries to enforce it.
    But you are right on the asset issue. There the United 
States can have a major impact because the world leaders are 
hiding their money, and they come across U.S. banks. So, we can 
have an effective remedy here. Some of us have joined together 
what is known as the Magnitsky bill, which deals with human 
rights violators in Russia that we believe should not get the 
privileges of our banking system. And we think that would be an 
effective way to bring them to justice.
    Al-Bashir was indicted as a war criminal. There was an 
arrest warrant issued for his arrest by the International 
Criminal Court in March of 2009. He is a known abuser of human 
rights and has violated international standards. Defense 
Minister Hussein, an arrest warrant was issued this month for 
his arrest. So, these are criminals. So, I think we are on a 
very high authority to impose the type of financial sanctions 
which could have a major impact.
    The Government should not be afforded the legitimacy of the 
international community when their leaders are scheduled to be 
at The Hague to stand up for the crimes that they have 
committed.
    So, I just really wanted to urge us to keep this focus. We 
cannot allow under our watch another Darfur humanitarian crisis 
to emerge in this same region of the world.
    So, thank you again.
    The Chairman. Senator, before--I do not want you to feel 
rushed. And what we are going to do is Senator Coons has gone 
over. I am going to go over quickly and vote, come right back 
so we will be able to keep the continuity. So, take your full 
time.
    Senator Cardin. Well then, would you like to respond to 
what I said?
    [Laughter.]
    I will give you a chance to respond. I think your message, 
Mr. Clooney, about the importance of international respect for 
sanctions and denying the banking, the individual is what make 
the decisions. So, we can deny al-Bashir the opportunity to 
hide his wealth, it will have a major impact.
    Mr. Clooney. I think it would, Senator. I think that the 
secret to this is just tightening this noose around Khartoum, 
around the people who are charged with war crimes. They should 
not be allowed to have a ton of money stuffed in a Malaysian 
bank, which is what is going on. We need to be able to track it 
down and find it.
    They are also using that money to buy weapons to hurt 
innocent people. It is a cowardly act what we saw while we were 
there. These are not--these are not acts of war. These are war 
crimes. And they are funding it, and they are not funding it 
simply with Sudanese pounds.
    So, I think chasing the money is a very big issue, not just 
to stop the actual acts themselves, but to put pressure on them 
internally.
    You know, Omar al-Bashir in his home has five tanks 
surrounding and pointed out. That is not a very secure, you 
know, leader quite honestly. And so, we feel as if the more you 
expose his corruption, the more inclined the people in Khartoum 
would be to perhaps have someone else lead their country.
    Senator Cardin. As Senator Lugar pointed out in his opening 
statement, the transparency bill the two of us worked on to 
require that oil companies, mineral companies, to disclose 
their contracts so that we can at least try to track the money.
    We know that the Sudanese Government has received a lot of 
income from oil wealth over the years, and we know a good part 
of that has been diverted. It is not going to the people. So, 
tracking that money, tracking that wealth, would have a major 
impact on the comfort of their leaders. And it is something 
that the United States can do. This is something that--it does 
not require a lot of countries to work with us. We are the 
major banking center in the world. We have got London to go 
along with us. We can do an awful lot in this area without 
worrying about China, or worrying about Russia, which at times 
does not always follow our lead on the human rights front.
    Senator Isakson, I will hand it off to you.
    Senator Isakson. Thank you, Senator Cardin. I will be brief 
also. I have got two questions.
    Mr. Clooney, when I went to Darfur 3 years ago, one of the 
tools that had been used to cause the disruption, and the fear, 
and the intimidation was gender-based violence against women, 
primarily rape. Is that going on the mountains as well?
    Mr. Clooney. In the camps we were visiting, that was a very 
big issue still. Again, these are the exact same patterns we 
saw in Darfur. We saw it happen last year when we were in 
Abyei. We saw it used in--employed again here in the Nuba 
Mountains in South Kordofan. Absolutely. There was no question 
about it. John, you might have----
    Mr. Prendergast. Only to say that it is still happening in 
Darfur. Even though the attention has gone away, there still 
are massive atrocities being committed against the civilian 
population. So, we need to--when we talk about a holistic 
solution in Sudan, we need to talk about dealing with all of 
these problems comprehensively that we have been coming back to 
this committee over and over again to talk about rather than 
stove piping them individually and playing into the hands of 
Khartoum, which wants to divide the international community 
about these various problems.
    Senator Isakson. On that point, Ms. Lindborg mentioned the 
possibility of a tripartite agreement in the U.N., the Arab 
League and I think the African Union proposed. If al-Bashir 
signed it, is there any fear he would do the same thing in 
Kordofan that he has done in Darfur about just kicking NGOs out 
indiscriminately and trying to disrupt the aid that we do get 
in?
    Mr. Prendergast. Well, I think that the Government of Sudan 
learned its own version of a lesson in Darfur by allowing 
international aid agencies to come in early on into the crisis, 
and then become, in fact, the witnesses. So, they basically 
said at the outset of their military operations in the Nuba 
Mountains and Blue Nile, we are not allowing any witnesses in.
    So, there are no aid groups operating now, so it is an 
access crisis for all those people as the clock ticks 
inexorably toward the rainy season.
    So, on the first instance, and Ambassador Lyman and USAID 
and others have worked very hard at trying to get an access 
agreement so that working behind the African Union and the Arab 
League and U.N. proposal. And so, that is really where the 
attention needs to be on, and it is to stop the use of 
starvation as a weapon of war. It is a war crime, and it just 
must be ended.
    Senator Isakson. Thanks to all of you for your advocacy, 
and I will turn it over to Senator Udall.
    Senator Udall. Thank you very much. Thank you, Senator 
Isakson.
    I cannot tell you how important it is, I think, for George, 
for you and John to have gone over there and brought these 
images back. And I think Chairman Kerry was right in saying we 
should play them and have them up on the screen because I think 
as painful as they are to see them, the thing that this does is 
allow all of the American people and people around the world to 
really get engaged with us, and say we do not want this to 
happen again.
    And one of the things that you have mentioned is, and that 
is what I wanted to question a little bit on, and I think John 
mentioned this, but I am willing to hear from both of you. The 
idea that Satellite Sentinel could be used by prosecutors--I 
was a former prosecutor, so I kind of relish the idea of having 
bad guys that know something is going to be done to them. I 
mean, something at The Hague. It is going to come down on them.
    Have you visited with prosecutors at The Hague? Are they 
interested in your technology? Have you talked to them about 
the kinds of things that may be--could be utilized to 
strengthen cases and those kinds of things, because if there is 
anything out there that is going to prevent this from happening 
again in other places in the world, is that people know that we 
have an international justice system that is going to work and 
eventually bring people like you described, George, the just 
terribly murderous individuals, bring them to justice.
    Mr. Clooney. Well, I will let you talk about The Hague for 
a second.
    I do want to say one thing. There is an interesting thing 
that happens when you get involved in these. You think that the 
minute people know, then it will stop. Your assumption is that 
everyone just does not know. And the truth is even when you 
know, it does not stop. It requires a constant drip of 
information. It requires you to keep piling it on. And 
sometimes that means that it is not going to be effective in 
stopping it, but at the very least it is going to be used later 
as evidence in a trial.
    We are trying to continually--you know, we would like to 
use this information at the Security Council because a lot of 
the times what happens at the Security Council is someone, we 
know the players, will veto any raising of the mandate of 
protection because they will say, well, this is just rebel 
infighting. Well, we have imagery that shows--we got images 
yesterday that show an Antonov flying over the top, plumes of 
smoke where it has bombed innocent villagers.
    Well, that is not rebel infighting.
    So, our hope is not just to use it at The Hague, but our 
hope is to try and use it as something to pry the Security 
Council toward raising the mandate from a six to a seven, you 
know, trying to move that along. And John can speak about 
talking with The Hague.
    Mr. Prendergast. Yes. The current International Criminal 
Court mandate is only--involves Darfur, crimes committed in 
Darfur. So, basically as the arrest warrants have been issued 
for three of the key regime leaders, they are greeted 
internationally with a lot of skepticism. Like, there are still 
a number of governments that believe a lot of this evidence is 
manufactured, and there are still a lot of divisions 
internationally about whether the crimes were as terrible as 
they were alleged to have been.
    So, part of the purpose of having this Satellite Sentinel 
Project is to create airtight evidence for future arrest 
warrants and prosecutions based on the crimes that are being 
committed now, which are the same kinds of crimes by the same 
people orchestrating them, as were the--as is the case in 
Darfur. So, it is creating that evidentiary base for future 
prosecutions, and we hope that at least the three that have 
already been indicted will actually come to justice someday.
    Senator Udall. Yes. Could you--I know that there are others 
that are involved with you that are your partners in this, and 
you may want to just mention them in terms of who has worked 
with you and who is----
    Mr. Clooney. On the Satellite Sentinel Project?
    Senator Udall. Yes, Satellite Sentinel.
    Mr. Clooney. The biggest gift we got was the satellites 
themselves. Digital Globe really out of--for no other reason 
than the goodness of their heart donated millions of dollars' 
worth of imagery. It is hard to explain how important that is 
because there is only really on satellite company that is in 
that area that can do this for us. So, they have been an 
incredible partner to us, and continue to be. The evidence that 
we picked up, we have gotten shots of mass graves. We have 
gotten shots of tank movement and troop movement and all those 
things.
    Remembering and understanding that part of the reason this 
can work is because of the topography, you know. This would not 
be as effective in the Congo because it is harder to see from 
the sky, you know, with all the trees, Harvard.
    Mr. Prendergast. Harvard, and then, of course, once you get 
the imagery you have to have analysis of it. And so, there is a 
team at the Harvard Humanitarian Initiative that is dedicated 
to in real time analyzing the imagery, producing independent 
nonpartisan reports about what they are seeing and what they 
are assessing these images to mean, and then those reports get 
put out, and then we try to generate attention around them in 
order, again, to act as a deterrent to the crimes.
    Mr. Clooney. And they stay up all night working. They are 
young people and they are just doing--it is all heart, those 
kids. They are great.
    Senator Udall. Thank you very much. It has been very, very 
helpful.
    The Chairman. Thank you, Senator Udall. I think you have 
got time to get over there.
    Senator Udall. I hope so.
    The Chairman. Senator Coons.
    Senator Coons. Thank you, Chairman Kerry, and thank you for 
your disciplined and engaged leadership on Sudan and for 
calling this hearing today, and for all you have done to help 
continue to sustain attention and engagement on the challenging 
issues around Sudan and Darfur.
    I would like to thank Special Envoy Lyman and Assistant 
Administrator Lindborg for your testimony and for your very 
hard work in this area. And to George, to John, and to 
Jonathan, thank you for what you have done to get so much 
focus, engagement, and effective attention on the challenging 
humanitarian issues in Darfur, in the Nuba Mountains as your 
video so poignantly demonstrates, and in the ongoing and 
strategic challenges that we face in engaging people in paying 
attention to sustainably the very real challenges in bringing 
peace and development to South Sudan and to the whole region.
    Later today, Senator Isakson and I, as the chair and 
ranking minority on the Africa Subcommittee, will be joined by 
Senators Durbin and Wicker in introducing a resolution for 
consideration by the Senate that specifically supports the 
efforts that all of you have talked about today. And it calls 
for the Government of Sudan to allow immediate and unrestricted 
humanitarian access to South Kordofan, Blue Nile, and other 
conflict areas, and calls on Sudan and the SPLM-North to reach 
a mutually beneficial agreement to end their conflict. That is 
just one of many things that we in the Congress can and should 
be doing to continue what has long been a bipartisan tradition 
of engagement leadership on these issues.
    George, you closed by referencing the folks who stay up all 
night, the energetic young people who process the images from 
the satellite project. Just in the past few weeks, we have seen 
a flood of interest in Joseph Kony through the Kony 2012 
Campaign, and, John, the Enough Project has been one of the 
central partners working with Resolve and with Invisible 
Children to drive that.
    You have both been very effective in getting Americans and 
folks around the world to pay attention to a great humanitarian 
crisis in a fairly remote corner of the world. What advice do 
you have for all of us who want to sustain and engage Americans 
and folks more broadly in actually continuing to be concerned 
about a humanitarian crisis such as exists in Darfur, such as 
we see emerging in the Nuba Mountains, such as continues in the 
jungles of the DRC and Central African Republic with Joseph 
Kony. How do we keep young people, people of all ages excited 
and engaged? It is rare we have millions of people calling for 
more American engagement with Africa. What do we at this 
moment?
    Mr. Clooney. Well, John will have some ideas. He has been 
doing this a lot longer than I have.
    I would say that, you know, we are going to fail a lot.
    You know, we are going to fail in our attempt to help 
people in these very difficult regions, and we are going to 
fail a lot in trying to keep attention in a certain area 
because other news stories are going to bump us off. You know, 
there is going to be an Arab Spring, and we are not going to be 
paying attention to what happens. And a lot of these people use 
that as a moment to do some pretty terrible things.
    The trick is going to be in sustaining it is to be able to 
find moments that are--that you can point to and say, this is a 
turning point, good or bad, and let us amplify it. And finding 
several of those a year to be able to keep it up, you cannot 
have a constant drip every day on television because no one 
would care quite honestly. There is not just donor fatigue. 
There is misery fatigue, and people get tired of it at some 
point.
    So, what we--our job is to find those moments. It is 100 
days before these people vote for their own--for a referendum 
for their own state, so let us make it a--let us focus on that. 
There is an election; let us focus on that. There is a brand 
new state. There is a good possibility of people starving to 
death in the next couple of months, so let us focus on it.
    So, part of our job is to try and pick through all of those 
news cycles, find areas that we can keep it up. But young 
people and church groups have been the real--they have been 
doing all the hard work for us. They have been carrying this 
thing for years. They were driving Darfur forever. They have 
been keeping the message out. They have been fundraising. They 
have been keeping the pressure on, quite honestly, all of us in 
this room.
    And so, I would not worry too much about the sustainability 
inside the hearts of all of these young people and all of these 
church groups because that just continues. It is just more 
about finding moments that we can draw attention to try to move 
the pin forward a little bit, and I find that to be the issue.
    Mr. Prendergast. And the only footnote I would add is that 
the good news is this is such a bipartisan venture. And, 
therefore, we do not have real opponents here except for just 
indifference of often ignorance. People just do not know.
    So, the thing that I find exciting about the first 10 years 
of the 21st century of activism is the chance through social 
media and other fora to create real partnerships between all 
these wonderful nongovernmental organizations that are working 
so diligently on these issues. They partner with groups in 
Africa, because, remember it is on the front lines where 
Africans in places like Sudan and Congo and Northern Uganda 
have been doing most of the work to try to resolve these 
problems, so we can only just come in on the margins and try to 
help them. So, the coalitions and the partnerships they create.
    Then the partnerships that are created here in Washington 
between those NGOs and Members of Congress like yourself, 
Senators who have taken a stand one time after another in 
supporting positive engagement in the world by the United 
States. That helps stiffen the spine and give political support 
to the administration, whatever party is in power.
    And for President Obama, the way he engaged in advance of 
the referendum in the latter half of 2010, every Sudanese, 
South Sudanese person we talked to said that was perhaps the 
most important, along with China's support, the most important 
aspect--international aspect of getting a free and fair and 
peaceful referendum in 2011.
    So, it is that chain that starts on the ground in the 
region with African human rights activists and others, women's 
group and others, struggling to try to get the word out about 
their situation, partnering with NGOs here in the United States 
who partner then with you guys, who then give support to the 
administration, Republican or Democrat, to then actually engage 
positively.
    And that, I mean, when I started in the 1980s in doing this 
kind of stuff, that kind of thing did not happen. So, it is a 
very exciting moment. And having George frankly can make that 
larger. Having the Invisible Children video, despite all the 
different opinions about it, it just makes this kind of a 
partnership even more real and possible.
    Senator Coons. If I could just in closing, Mr. Chairman, 
George and John, I am grateful for your sustained engagement in 
this. There are lots of faith groups of all backgrounds. There 
are lots of nongovernmental organizations in Africa, in the 
United States, and around the world who keep doing the hard 
work on the ground engaging, bringing information to the light, 
helping make the world aware of these crises. And this has been 
a bipartisan effort across the Bush administration, the Obama 
administration, folks on both sides of the aisle.
    The one challenge here is sustaining support for America's 
use of diplomatic and developmental resources around the world. 
The United States has a lot of power--military, diplomatic, 
developmental. But sustaining the investment that makes 
possible what Assistant Administrator Lindborg is doing, what 
Special Envoy Lyman is doing, making sure that they have the 
resources for us to be engaged in Northern Uganda, in South 
Sudan, in the region, delivering the sort of sustaining 
investment in providing the framework for peace, for progress, 
and development. That is something that has been very hotly 
contested here in Congress just in the past year, and so I 
would urge folks who may be paying attention or tuning in to 
these issues for the first time to realize that that is 
something on which there are sharp disagreements. I think we 
should continue to invest 1 percent of America's total budget 
in making sure that we have got the resources to be an 
effective voice for justice and for progress in these parts of 
the world. And I am grateful to you for bringing these things 
to light and for sustaining our engagement in these parts of 
the world.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Coons, and I want to thank 
you--as chairman, I really want to thank you for your 
tremendous commitment and your diligence as chair of the 
Subcommittee on African Affairs. You have really been terrific.
    Senator Shaheen.
    Senator Shaheen. Thank you. Thank you all very much for 
being here.
    I want to just follow up a little bit on Senator Coons' 
questions about how to sustain the interest and get action that 
will help bring that international pressure to make a 
difference in South Sudan, and whether you are contemplating, 
or anyone you know of is contemplating, a stop Kony-like video. 
I know that you have referenced that, or whether there are 
other ways to get young people more engaged in this issue 
because clearly that kind of energy can really make a 
difference. Any of the three of you.
    Mr. Clooney. It was funny. We landed yesterday and we were 
gone for 8 days, and did not have time, the Kony video sort of 
hit. By the time we landed everyone was asking us about it, and 
I did not really know what had happened.
    It is an incredibly effective tool, like John was talking 
about. Social media can really be a very big deal now, and 
YouTube, and Twitter, and all those elements are a way to keep 
young people involved. We are going to put the videos and the 
things that we got that we put together, we will make it 
available to people.
    There is a--the Sudan in general has an infrastructure that 
is a lot stronger than most places for charitable 
organizations. There have been church groups and student groups 
for a long time who have been working in these areas. So, in 
some ways it does not go away, you know. In some ways there is 
that sustained--already sustained. Our job is to amplify it as 
much as we possibly can, and we will continue to do that.
    Understanding that in an election year, political will is 
probably the most important thing you can get. What I think is 
so terrific about being here today is that this is truly one 
subject matter that both sides not only agree on, but have 
actively worked hard on, and have had some success on, and have 
had some failures on, and understand one another.
    So, this takes a little less political will. This one is 
one where you do not come up on the wrong side doing the right 
thing. And so, we feel as--we feel heartened by the idea that 
it is Senator Kerry and Senator Lugar, and that both of them 
have worked very hard on this subject matter. We feel heartened 
that this is something that is not polarizing.
    And so, yes, you need political will, and we will continue 
to push as much as we can to get as many people as we can get 
involved because the louder it is, the harder it is for these 
people to commit atrocities. But we also thank you here for 
your sustained involvement and know that not only do we 
appreciate it, we are also very well aware that you will 
continue.
    Senator Shaheen. You know, I think you have all, including 
the first panel, made a very important point about the fact 
that this is a bipartisan effort, and that it needs to be, and 
that that has been very important. I do think, as Senator Coons 
pointed out, that the public support for international 
assistance and our foreign aid budget, which is important to 
addressing what happens on the ground in Sudan, is not always 
that bipartisan and not always as robust.
    So, I guess I would urge us to be thinking about social 
media that is getting people to act, thinking about how to 
address that foreign aid piece as part of that action because 
that is clearly going to be critical as we sustain the efforts 
that we need to make on the ground.
    So, thank you all very much.
    Mr. Clooney. Thank you, Senator.
    The Chairman. Thank you, Senator Shaheen.
    A couple of quick questions, and I think we will close out. 
But, Jonathan, what--you have talked about the political 
reforms in the north and the potential of, you know, elections 
in 2015 or something, trying to make a difference. Just very 
quickly if you can, how do you see that--I mean, these guys are 
not exactly reformers, number one, and they are not exactly 
listening to anybody. How do you envision that?
    Mr. Temin. Thank you, Mr. Chairman. It is an uphill battle, 
and I don't want to be Pollyanna about this. But it is also an 
unprecedented time in Sudan's history. A quarter of their 
country just voted almost unanimously to leave. They are under 
unprecedented economic stress right now. There are signs of 
internal dissent within the leadership that we have not seen 
much in the past. And so, those are things that could add up to 
some sort of change.
    But as I said, there is not a lot of evidence of it so far, 
and I am not certain there is going to be. But I also think 
that the alternatives are ugly, and particularly some of the 
talk about regime change through violence would be quite 
violent.
    The Chairman. Well, I agree with you, and certainly in the 
conversations that I have had in Khartoum with members of the 
Government, we have tried to make the point that this really is 
a major opportunity for them to kind of move in a different 
direction. I worry that the threesome that has been well named 
here linked to Darfur that has sort of asserted power for the 
moment seems to be moving in a totally different direction. But 
that, frankly, makes all of this much more compelling. And so, 
we really need to refocus in a lot of ways.
    If I could ask both John and George quickly, you have made 
it very eloquently clear here today and compelling about the 
need to deal with the food supply to avoid a disaster. But in 
the long run here obviously, Blue Nile and South Kordofan need 
a political solution. What did people share with you, and what 
is the vision that you come back with or that they expressed to 
you about that political solution for those Two Areas?
    Mr. Prendergast. Well, I think that the difference is that 
the people of the Nuba Mountains and Blue Nile learned from 
Darfur that if they allow their region to be sort of isolated 
and stove piped for a bilateral deal between the Government of 
Sudan and them for some kind of regional autonomy or something, 
in the long run that is unsustainable. There needs to be a deal 
that addresses the problem, the big root cause of the problem 
in Sudan, which is the problem, as John was talking, is the 
problem of governance in the center.
    And so, for the first time we have really seen in the north 
in Sudan a broader effort, armed and unarmed because you have 
the Sudan Revolutionary Front, which has sort of formed an 
association with a number of these armed groups. And, by the 
way, for the first time, all the Darfur actors who were so 
divided during the Darfur specific negotiations, are now under 
the same umbrella and working together. And then a number of 
unarmed groups who have their own objectives.
    But the bottom line is people want to see a democratic 
transformation just like they do throughout North Africa and 
Middle East. And that is where--I think that is one of the 
things that the United States can be helpful in quietly in 
providing support to some of the unarmed groups that are 
struggling every day to try to figure out a way--civil society 
groups, and faith-based groups, and community groups, and 
women's organizations, who are struggling to find a way to help 
build for that democratic transformation. That kind of support, 
and I know that the discussion is internal in the 
administration. They have not resolved it, like how can we be 
helpful here? And I think there would be a lot of things that 
we could do in that regard to be able to help foster and 
facilitate and empower some of the Sudanese groups themselves 
to assert more definitively their democratic rights and their 
future.
    The Chairman. Well, we are now started on a second vote, 
and this is only a 10-minute vote, so we are going to be 
compelled here I think in this round to try to wrap up. But I 
think we are at that point anyway.
    Let me say to you, John and George, how much we really 
appreciate what you have done here. I think this is a 
tremendous example of the best citizen activism, and obviously, 
George, you have lent your celebrity and stardom to this 
initiative, which has its risks. But it also is critical to the 
ability to be able to get to focus sometimes. We all wish it 
were otherwise, but it is not. And we thank you for being 
prepared nevertheless to just in case, spontaneously, take 8 
days and go over there, and, you know, not without its risks, 
might I add.
    I was an activist before I came here to be a Senator, and I 
vowed that I am going to stay an activist Senator. And I am 
proud to have people on this committee who feel the same way. 
So, I can tell you that we are going to absolutely stay focused 
on this, continue to work with you, do everything we can to try 
to leverage the outcome that we would all like to see.
    I am an optimist, but I have, you know, learned around here 
not to be naive about it. But I still do believe as intractable 
as some of this looks, and I think Ambassador Lyman believes 
this, too, or he would not stay at it. There is a pathway here. 
There is an avenue. But we do need to increase the leverage. We 
do need to reach out to China, Qatar, Saudi Arabia, and others, 
and get them to share some of this sense of urgency and, 
frankly, humanitarian compelling rationale that is not always 
high on the agenda in some parts of the world.
    I think we can have greater impact here, and to a large 
measure I think your sense of timing about when those moments 
are that you need to kind of push again is important and well 
taken.
    So, I express the gratitude of a lot of people, but I do 
not want to get gushy about it because we have got a lot of 
work to do. And there is a long way to go. But this has been 
helpful. And I just would say to you and others who follow this 
and are interested in it, I hope the Sudan Embassy, I have no 
doubt, is following it, and I hope Omar al-Bashir realizes that 
there is no easy out. There is no way here that we are going to 
not continue to stay engaged and to be involved. We had a 
roadmap. We thought we could have moved on some components of 
this. And regrettably Blue Nile and South Kordofan evidenced 
behavior that made it impossible to do that.
    So, it is really his choice, their choice. They will decide 
to some measure where we are going to go. We are prepared to 
offer open opportunities to go in a different direction, and I 
know that President Obama and his security advisors and others 
are--and Secretary Clinton--are greatly focused on this. You 
will have an opportunity to meet and talk with them in the next 
day. And all of us just need to work as we have in a very 
cooperative way, I think, across party lines, across branches 
of government lines, just in a constructive way to try to get 
the job done.
    So, thank you for helping us today to do our job better, 
and we appreciate your efforts.
    If everybody could just let the witnesses sort of come 
back, Ambassador and Administrator. But we thank you all for 
coming. We will keep the record open until one week on the 
close of business Wednesday, March 21.
    The Chairman. We stand adjourned.
    [Whereupon, at 12:15 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


     Response of Ambassador Princeton Lyman to Question Submitted 
                        by Senator John F. Kerry

    Question. I have been told that UNAMID may be downsizing the number 
and seniority of personnel working on sexual and gender-based violence 
and human rights. I know that the U.N., like all of us, must make 
budget cuts, but that is not where I would begin. Protection of women 
and girls and of human rights is especially important if the peace 
process is to go forward. Is this downsizing taking place and if so, 
what do you expect will be its potential effect?

    Answer. The U.N. Secretariat assures us that senior staff human 
rights positions are guaranteed under an interagency MOU between the 
U.N.'s Department of Peacekeeping Operations (DPKO) and the Office of 
the High Commissioner of Human Rights (OHCHR). It is therefore not 
possible for the mission to reduce the number or seniority of these 
leadership positions without amending the MOU, which DPKO does not 
intend. Ambassador Susan Rice and Ambassador Dane Smith, U.S. Senior 
Advisor for Darfur, have repeatedly raised the issue of improved human 
rights reporting from UNAMID with Joint Special Representative Ibrahim 
Gambari and with the U.N. Secretariat. The civilian components of 
UNAMID must be adequately staffed to interact with the broad range of 
stakeholders in Darfur so that they are able to produce quality 
reporting and to integrate these stakeholders into the broader peace 
process. To that end, UNAMID is currently finalizing an internal matrix 
on how it can support the signatories of the Doha Document for Peace in 
Darfur (DDPD) in implementing the agreement. The Gender Advisory Unit 
and the Human Rights Division have both contributed to this process, as 
there are a number of provisions related to women and human rights more 
broadly in the agreement. We will provide you with more details as they 
are available.
                                 ______
                                 

    Response of Assistant Administrator Nancy Lindborg to Question 
           Submitted for the Record by Senator John F. Kerry

    Question. A problem is emerging in South Sudan in which 
international NGOs, supported by USAID and other donors, are having 
trouble securing work permits for their necessary staff. I understand 
that the South Sudanese Government wants to encourage the hiring of 
South Sudanese staff, but the capacity gap is immense. International 
staff, many from neighboring countries in Africa, are essential for the 
work and oversight of these projects. What is the extent of the 
problem? Should the United States consider conditioning our aid based 
on access?

    Answer. The U.S. Government has been tracking closely the issue of 
work permits and visas issued by the Government of the Republic of 
South Sudan (RSS) since the country's independence in July 2011, as a 
growing number of implementing partners of USAID-funded programs are 
encountering problems renewing or extending existing permits and 
obtaining new permits necessary for their expatriate staff. 
Difficulties have included delays in processing of work permits (more 
than 3 months to process and up to 1 year until completion), 
arbitrarily enforced nationalization of positions previously allocated 
to international staff, and inconsistent application of rules. An 
informal survey of nongovernmental organizations (NGOs) in October 2011 
indicated that nearly three-quarters of NGOs had experienced 
difficulties when applying for work permits during the previous 6 
months. Because the issue has affected the NGO community at such a 
large scale, the United States and international bilateral and 
multilateral partners have been working collectively to raise the issue 
with the RSS in order to ensure that NGOs can continue to deliver 
humanitarian and development assistance in South Sudan.
    In December 2011, U.S. Charge d'Affaires Chris Datta and USAID/
South Sudan Mission Director Kevin Mullally met with Republic of South 
Sudan Vice President Riek Machar Teny, Minister of Interior Gen. Alison 
Manani Magaya, and the Acting Minister of Labor to discuss the 
challenges that international NGOs, including U.S. Government 
implementing partners, are facing regarding visa and work permits. The 
outcomes of the meeting were as follows:

  <bullet> The ministers indicated that visas would no longer be issued 
        for just 1 month, but rather for 3 months, until such time as 
        an individual's residence situation was regularized.
  <bullet> The need to pay for a visa in Washington and again in Juba 
        was an error and will be stopped.
  <bullet> The Acting Minister of Labor said that only one 
        international NGO had contacted him regarding difficulties in 
        obtaining work permits, and that the issues were quickly 
        resolved to everyone's satisfaction at the meeting. The 
        ministers indicated that a formal policy to clarify procedures 
        would be issued in the near future. However, as of the end of 
        March, this policy has not yet been issued.
  <bullet> U.S. Government representatives committed our implementing 
        partners to working collaboratively with the RSS and making 
        every effort to employ qualified South Sudanese. All emphasized 
        work with implementing partners to employ qualified South 
        Sudanese before recruiting non-South Sudanese. In addition, the 
        U.S. Government and our implementing partners are making strong 
        efforts to develop local capacity by training South Sudanese 
        staff and preparing formal procedures to transition positions 
        and people to ensure maximum South Sudanese representation on 
        our staffs.

    In some recent cases, work permits for some USAID partners have 
been granted in a very short time. We expect this is a result of U.S. 
attention to the issue and cooperation with the RSS to align 
procedures. We believe that part of the problem has been a lack of 
sufficient or clear visa processing procedures and systems or their 
consistent application following independence last July.
    We hope that a recent letter sent from the American, British, and 
the Norwegian Embassies, the Delegation from the European Union, and 
the United Nations Development Program, which outlined policy 
recommendations for visas and work permits, will help lead to a 
permanent solution on the issue. We believe that the South Sudanese 
Government intends to resolve the problem with clear and consistent 
procedures. For this reason, we do not believe that the United States 
should consider conditioning our aid based on international access to 
visas and work permits at this time.
    We will continue to closely monitor developments, and coordinate 
with our donor partners to advocate for the wide dissemination and 
consistent application of clear appropriate, written, and respected 
policies. These policies will ensure that the necessary capacity is 
available in the country to provide uninterrupted delivery of 
humanitarian and development assistance at the present time and in the 
future to the South Sudanese people during this fragile post-
independence period.

                                  <all>

</pre></body></html>
